<html>
<title> - FULFILLING THE POTENTIAL OF WOMEN IN ACADEMIC SCIENCE AND ENGINEERING ACT OF 2008</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                      FULFILLING THE POTENTIAL OF
                     WOMEN IN ACADEMIC SCIENCE AND
                        ENGINEERING ACT OF 2008

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON RESEARCH AND
                           SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 8, 2008

                               __________

                           Serial No. 110-100

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
42-121 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. BRIAN BAIRD, Washington, Chairman
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            ROSCOE G. BARTLETT, Maryland
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               DAVID G. REICHERT, Washington
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
BARON P. HILL, Indiana                   
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 JIM WILSON Subcommittee Staff Director
          DAHLIA SOKOLOV Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
                    BESS CAUGHRAN Research Assistant


                            C O N T E N T S

                              May 8, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Research and Science Education, Committee on Science and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................     9

Statement by Representative Vernon J. Ehlers, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................    10

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10

Prepared Statement by Representative Russ Carnahan, Member, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........    11

                               Witnesses:

Dr. Lynda T. Carlson, Director, Division of Science Resources 
  Statistics (SRS), National Science Foundation (NSF)
    Oral Statement...............................................    12
    Written Statement............................................    13
    Biography....................................................    16

Dr. Linda G. Blevins, Senior Technical Advisor, Office of the 
  Deputy Director for Science Programs, U.S. Department of Energy
    Oral Statement...............................................    16
    Written Statement............................................    17
    Biography....................................................    21

Dr. Donna K. Ginther, Associate Professor, Department of 
  Economics; Director, Center for Economic and Business Analysis, 
  University of Kansas
    Oral Statement...............................................    22
    Written Statement............................................    23
    Biography....................................................    29

Discussion.......................................................    29

             Appendix 1: Answers to Post-Hearing Questions

Dr. Lynda T. Carlson, Director, Division of Science Resources 
  Statistics (SRS), National Science Foundation (NSF)............    40

Dr. Linda G. Blevins, Senior Technical Advisor, Office of the 
  Deputy Director for Science Programs, U.S. Department of Energy    41

Dr. Donna K. Ginther, Associate Professor, Department of 
  Economics; Director, Center for Economic and Business Analysis, 
  University of Kansas...........................................    42

             Appendix 2: Additional Material for the Record

Discussion Draft of the Fulfilling the Potential of Women in 
  Academic Science and Engineering Act of 2008...................    44

Letter to The Honorable Eddie Bernice Johnson from Lisa M. Maatz, 
  Director of Public Policy and Government Relations, the 
  American Association of University Women, dated May 7, 2008....    53

Letter to The Honorable Eddie Bernice Johnson from Lisa M. Maatz, 
  Chair, National Coalition for Women and Girls in Education, and 
  Jocelyn Samuels, Vice Chair, NCWGE, dated May 7, 2008..........    54


 FULFILLING THE POTENTIAL OF WOMEN IN ACADEMIC SCIENCE AND ENGINEERING 
                              ACT OF 2008

                              ----------                              


                         THURSDAY, MAY 8, 2008

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                      Fulfilling the Potential of

                     Women in Academic Science and

                        Engineering Act of 2008

                         thursday, may 8, 2008
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On October 17, 2007, the Research and Science Education 
Subcommittee held a hearing on Women in Academic Science and 
Engineering, during which we examined institutional and cultural 
barriers to recruitment and retention of women faculty in science and 
engineering fields, best practices for overcoming these barriers, and 
the role that federal research agencies can play in disseminating and 
promoting best practices.
    On Thursday, May 8, the Subcommittee will hold a hearing to obtain 
comments on a draft bill that would provide for federal programs to 
address the needs discussed in the previous hearing.

2. Witnesses

        <bullet>  Dr. Lynda T. Carlson, Director of the Division of 
        Science Resource Statistics, Directorate for Social, Behavioral 
        and Economic Sciences, National Science Foundation.

        <bullet>  Dr. Linda G. Blevins, Senior Technical Advisor in the 
        Office of the Deputy Director for Science Programs, Office of 
        Science, Department of Energy.

        <bullet>  Dr. Donna K. Ginther, Associate Professor of 
        Economics and Director of the Center for Economic and Business 
        Analysis, Institute for Policy Research, University of Kansas.

3. Overarching Questions

        <bullet>  What are the elements of an effective program of 
        workshops to educate participants about gender bias in academic 
        science and engineering and to provide them with strategies to 
        overcome such bias? By what metrics should such workshops be 
        evaluated?

        <bullet>  What demographics data do federal science agencies 
        already collect in their grant making processes? What 
        demographics data do universities collect on their faculty 
        search and hiring, tenure review and promotion processes? What 
        data are needed to better understand and track gender 
        disparities in academic science and engineering?

        <bullet>  Does the proposed legislation adequately address the 
        federal role in programs and policies to help overcome cultural 
        and institutional barriers to gender equity in academic science 
        and engineering?

4. Overview

        <bullet>  Although women earn half of the Bachelor's degrees in 
        science and engineering (S&E), they continue to be 
        significantly under-represented at the faculty level in almost 
        all S&E fields, constituting 30 percent (in 2006) of full-time 
        doctoral science and engineering faculty at U.S. colleges and 
        universities and only 19 percent of full professors.

        <bullet>  In 2006, the National Academies produced a report 
        entitled, Beyond Bias and Barriers: Fulfilling the Potential of 
        Women in Academic Science and Engineering. The National 
        Academies panel, in addition to dismissing the relative 
        significance of any biological differences (in response to 
        former Harvard President Lawrence Summers' February 2005 
        remarks on this topic), made a series of recommendations to all 
        stakeholders, including universities, professional societies 
        and the Federal Government, to address cultural and 
        institutional gender bias in academic S&E.

        <bullet>  On October 17, 2007, the Research and Science 
        Education Subcommittee held a hearing on Women in Academic 
        Science and Engineering in which we explored broadly the 
        findings and recommendations of the National Academies panel. 
        Sections 5 and 6 below are taken directly from the 2007 hearing 
        charter, except for updates where more recent data have become 
        available.

        <bullet>  Today the Subcommittee will receive comments on draft 
        legislation that incorporates several of the recommendations 
        from the National Academies panel that were also discussed 
        during the previous hearing, including workshops to increase 
        awareness of implicit gender bias in grant review, hiring, 
        tenure, promotion, and selection for other honors based on 
        merit; extended grant support for caregivers; and improved 
        demographic data collection on federal grant-making.

5. Current Status of Women in Academic Science and Engineering

    According to data compiled by NSF, in 2006, women held 30 percent 
of all full-time science and engineering (S&E) faculty positions at 
U.S. colleges and universities. Specifically, they constituted 19 
percent of full professors, 34 percent of associate professors and 42 
percent of junior professors, a category that includes both instructors 
at two-year colleges and assistant professors at four-year 
institutions.
    As seen in this figure from the Beyond Bias and Barriers report, 
most of the social science disciplines and psychology are already 
dominated by women at both the graduate level and in faculty positions. 
The percentage of women earning Ph.D.s in other S&E fields has grown 
steadily in the last 30 years, and has already exceeded 50 percent in 
the life sciences. However, in 2003 women constituted 34 percent of 
assistant professor appointments in the life sciences, and slightly 
less at research universities. Half of this drop-off can be accounted 
for by including only the available pool of Ph.D.s\1\ in the life 
sciences: 42 percent in 2003. But attrition is still high in the step 
from completion of training to faculty appointment. Female under-
representation in life sciences faculties continues through the 
associate and full professor levels. Notably, while the physical 
sciences continue to have low representation at the graduate level (20 
percent), relative to the available pool of Ph.D.s the physical 
sciences actually show better representation for women in tenure-track 
faculty positions than the life sciences and other fields with a 
greater percentage of women Ph.D.s.
---------------------------------------------------------------------------
    \1\ In the case of assistant professor appointments, the available 
pool is the sum of Ph.D.s earned by women in the six-year period 
preceding appointment.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We present the 2003 data in this charter because those data were 
analyzed and presented in a way that more recent data have not been. 
However, since the last hearing, NSF has published 2006 data as part of 
Science and Engineering Indicators 2008. From 2003 to 2006, the 
representation of women in full-time senior faculty positions 
(associate and full professors) at all universities has increased by 
one to two percent in all of the major natural sciences fields--where 
chemistry is included in physical sciences--and by just under one 
percent in engineering. Not surprisingly, psychology and the social 
sciences saw slightly larger increases, but in no S&E field other than 
psychology do women represent more than 30 percent of senior faculty 
positions.
    Women who start out on academic pathways in S&E fields leave for 
other career paths at higher rates than their male counterparts, even 
though for the fields in which attrition is highest, women show 
increased representation at the post-doctoral level. Post-doctoral 
positions are a necessary prerequisite to faculty jobs in most S&E 
fields. From among those who leave post-faculty appointment but pre-
tenure review, men are more likely to move into other employment 
sectors and women are more likely to move into adjunct positions. 
However, in most fields, women and men faculty who are reviewed receive 
tenure at similar rates. As faculty move up in rank, there are again 
differences between men and women, this time in promotions, awards and 
even salary.

6. Institutional and Cultural Bias and Barriers

    In 2006, the National Academies produced a report entitled, Beyond 
Bias and Barriers: Fulfilling the Potential of Women in Academic 
Science and Engineering. The report was largely in response to the 
outcry over then Harvard President Lawrence Summers' 2005 remarks, in 
which he attributed what many thought to be a greatly exaggerated level 
of significance to a biological explanation for female under-
representation in academic S&E. The NAS panel reviewed the existing 
literature on gender differences in cognition and biology and concluded 
that, ``if systematic differences between male and female scientific 
and mathematical aptitude and ability do exist, it is clear that they 
cannot account for women's under-representation in academic science and 
engineering.'' \2\ Instead, the panel focused on the need to fix 
institutional, social and cultural bias and barriers.
---------------------------------------------------------------------------
    \2\ Critics of the NAS report disparage the panel for dismissing 
the significance of biology before all of the scientific evidence is 
in.
---------------------------------------------------------------------------
    To this end, the National Academies panel made a number of 
recommendations to all stakeholders. The panel called on university 
presidents and provosts to provide clear leadership in changing the 
culture and structure of their institutions, and deans and department 
chairs to take responsibility for implementing changes to recruiting, 
hiring, promotion, and tenure practices. They recommended that higher 
education organizations form an inter-institution monitoring 
organization and that scientific and professional societies help set 
professional and equity standards across the activities they lead, such 
as awards and conferences. The recommendations made to the Federal 
Government ranged from rigorous enforcement of federal anti-
discrimination laws by enforcement agencies, to better data collection, 
to provision of workshops to minimize gender bias by NSF and other 
federal funding agencies. The full list of recommendations is in the 
report summary: http://books.nap.edu/
catalog.php?record<INF>-</INF>id=11741.
    The status of women in academic S&E has improved appreciably in the 
last three decades, and institutions across the country are continuing 
to address institutional barriers to gender equity. However, the 
National Academies panel argues that changes in institutional policies 
are necessary but not sufficient--even many policies that appear on the 
surface to be equitable in fact disadvantage women. For example, many 
women who want children struggle with the intersection of the tenure 
clock and their biological clock. Many more men are also making work/
life balance career decisions.\3\ In order to attract top faculty 
candidates who want both career and family, a number of universities 
offer the possibility of an extension of the tenure clock--the number 
of years to tenure review--for assistant professors who have a child 
while under the clock. But in most cases young faculty feel pressure 
not to request this extension for fear that they will be judged 
differently in the tenure review process. In this case, cultural norms 
undermine a well-intentioned policy, and women, who are more often the 
primary caregivers for infants (especially if they breast feed), are 
disproportionably disadvantaged. Some universities have instituted an 
automatic rather than voluntary extension of the tenure clock in an 
attempt to overcome those cultural barriers.
---------------------------------------------------------------------------
    \3\ Currently, 42 percent of women in tenure and tenure-track 
careers have children, while 50 percent of their male colleagues have 
children.
---------------------------------------------------------------------------
    The report also discusses at length a phenomenon known as 
``implicit bias,'' in this case an implicit assumption of what a 
scientist is supposed to look like, i.e., a man, and probably a white 
man. The panel cites a Swedish\4\ study of peer-review scores, in which 
men received systematically higher competence ratings by their peers 
than equally productive women. In fact, women post-doctoral fellowship 
applicants included in that study had to be twice as productive (as 
measured by defined, quantitative measures of productivity) than their 
male counterparts to be judged equally competent. A similar claim has 
just been reported in Nature News by a woman physicist who was a post-
doctoral fellow at DOE's Fermi Lab in Illinois until 2005.\5\ This 
field of research is still relatively young, but the collection of 
evidence supporting the notion of implicit gender bias in academic S&E 
continues to grow. Minority-group women, as members of two major 
demographic groups historically excluded from the scientific 
enterprise, face their own unique set of challenges.
---------------------------------------------------------------------------
    \4\ Sweden has been named by the United Nations as a world leader 
in gender equity.
    \5\ Nature News, Vol. 452, 24 April 2008, Pg. 918.
---------------------------------------------------------------------------
    The list of cultural norms that appear to disadvantage women also 
includes the favoring of disciplinary over interdisciplinary research 
and publications, and the only token attention given to teaching and 
other service during the tenure review process.\6\ Thus it seems that 
it is not necessarily conscious bias against women but an ingrained 
idea of how the academic enterprise ``should be'' that presents the 
greatest challenge to women seeking academic S&E careers. Overcoming 
these cultural barriers is much more difficult than just enforcing 
anti-discrimination laws or making university policies more family 
friendly. And even among those who passionately advocate for change, 
there is no consensus about how or if to modify some of those core 
practices that have defined the academic enterprise for generations.
---------------------------------------------------------------------------
    \6\ While the reasons are unclear, it appears that women are more 
likely to engage in interdisciplinary and collaborative research, and 
to put more energy and time into teaching and mentoring activities than 
their male colleagues.

7. Workshops on Gender Bias

    In January 2006, officials from the Department of Energy (DOE), NSF 
and National Institutes of Health partnered in support of a workshop on 
gender bias for chemistry department chairs from across the country. 
The goal for this conference was to ``develop and implement strategies 
to significantly increase the number of women chemists in tenured 
academic positions in our research universities and eliminate the 
gender biases that negatively impact their career progress.'' In 
addition to department chairs, participants included lab heads from DOE 
National Labs and representatives of societies and federations. The 
workshop did result in a report of the challenges and issues 
addressed.\7\ However, the federal agencies did not sponsor any long-
term follow-up of the departments whose chairs participated. The 
physics community followed with a similar workshop in May 2007.\8\ 
Today's DOE witness participated as an advisor in both the chemistry 
and physics workshops and will address the elements of an effective 
workshop in addition to metrics for evaluation.
---------------------------------------------------------------------------
    \7\ http://www.chem.harvard.edu/groups/friend/GenderEquityWorkshop/
GenderEquity.pdf
    \8\ http://www.aps.org/programs/women/workshops/gender-equity/
index.cfm

---------------------------------------------------------------------------
8. Questions for Witnesses

Dr. Carlson

        <bullet>  The draft bill requires federal science agencies to 
        collect annual composite information on demographics, field, 
        award type and budget request, review score, and funding 
        outcome for all applications for research grants to 
        universities supported by those agencies. How much of these 
        data are already collected by the National Science Foundation 
        (NSF) for their own grants? What level of effort and resources 
        are required by NSF to collect all of the data as listed in the 
        draft?

        <bullet>  Assuming that the Director of the Office of Science 
        and Technology Policy established a uniform policy for 
        collecting and reporting such data based on the NSF model, what 
        level of effort and resources would be required of NSF to store 
        and publish the data from all of the federal science agencies?

Dr. Blevins

        <bullet>  Based on your own experience in helping to organize 
        workshops to address gender bias in the chemistry and physics 
        communities in 2006 and 2007, what are the elements of an 
        effective workshop? In answering this question, please address 
        workshop content, format, speakers, and participant categories, 
        in addition to any other elements that are important to an 
        effective workshop.

        <bullet>  What metrics should be used to evaluate the success 
        of such workshops in changing individual behavior and 
        institutional culture related to gender equity in academic 
        science and engineering?

        <bullet>  Are there challenges in overcoming gender bias that 
        are unique to the National Laboratories? Should the workshops 
        have sessions that are tailored specifically to National 
        Laboratory participants?

Dr. Ginther

        <bullet>  What data are needed to better understand gender 
        disparities in university departments of science and 
        engineering?

        <bullet>  The draft bill provides for a program of workshops on 
        gender bias in academic science and engineering. What are the 
        elements of an effective workshop? In answering this question, 
        please address workshop content, format, speakers, and 
        participant categories, in addition to any other elements that 
        are important to an effective workshop. What metrics should be 
        used to evaluate the success of such workshops in changing 
        individual behavior and institutional culture related to gender 
        equity in academic science and engineering?

        <bullet>  The draft bill requires a uniform federal policy for 
        extending the period of grant support for federally funded 
        researchers with caregiving responsibilities. Do you have any 
        recommendations for what such a policy should look like?

        <bullet>  Does the proposed legislation adequately address the 
        federal role in programs and policies to help overcome cultural 
        and institutional barriers to gender equity in academic science 
        and engineering?
    Chairman Baird. I want to thank everyone for joining us for 
this very important hearing on the role of women in science and 
ways we can continue to support advanced practice among women 
in science. We have had a number of hearings in this 
subcommittee on this. My dear friend and Ranking Member, Dr. 
Ehlers, is very interested in it, and of course, Eddie Bernice 
Johnson, the author of the legislation before us today is quite 
interested in this as well.
    Under normal circumstances I would have a long statement 
written for me by staff, but we have votes on the Floor 
possibly fairly early this morning, and in the interest of 
hearing witnesses, I will enter my own opening remarks into the 
record and would recognize now Dr. Ehlers for comments if he 
wishes to make some.
    [The prepared statement of Chairman Baird follows:]

               Prepared Statement of Chairman Brian Baird

    Good morning and welcome to this hearing on the discussion draft of 
Fulfilling the Potential of Women in Academic Science and Engineering 
Act of 2008. I want to thank my dear friend Ms. Johnson for bringing 
this important legislative proposal before the Subcommittee.
    According to NSF, women earned more than half of all science and 
engineering Bachelor's degrees in 2005, although they continue to earn 
only 20 percent in engineering, computer science, and physics. 
Similarly, while there remain considerable differences across fields, 
women are receiving science and engineering Ph.D.s in steadily 
increasing numbers. However, even in the life sciences where women now 
earn more than 50 percent of Ph.D.s, they hold only 30 percent of all 
associate and full professor faculty positions--and that's by far the 
highest number for all natural science and engineering fields.
    In October of last year, we held a hearing on Women in Academic 
Science and Engineering to review the findings and recommendations of a 
National Academies panel that carefully examined the reasons why the 
attrition rate for women in academic science and engineering continues 
to be higher than for men at every step along the academic pipeline.
    The panel found that most of the barriers to women in academia are 
not created with intent to discriminate. In fact, even policies that 
seem gender-neutral in theory might not be so in practice. They 
recommended that federal science agencies sponsor workshops on gender 
bias in order to raise awareness of and provide strategies to overcome 
the collective effect of many small and subtle incidents of 
subconscious bias that are often built into academic culture. The draft 
bill under consideration creates a program of such workshops.
    The National Academies panel also highlighted the need for better 
data collection, to understand the extent of gender inequity and to 
have a basis for evaluating policies to address the gap. The draft bill 
therefore requires federal science agencies to collect detailed 
demographic data on the grant making process, and encourages 
universities to collect better data for the purposes of evaluating the 
gender bias workshops.
    In today's hearing we seek feedback on these and other provisions 
of the Fulfilling the Potential of Women in Academic Science and 
Engineering Act of 2008. We also welcome suggestions for other programs 
or language that we might consider including.
    We cannot afford to continue losing our best and brightest women 
from academic science and engineering careers. The programs in this 
bill are a small but critical part of what is needed to tackle the 
barriers that women face. But Congress has a limited role in helping to 
overcome what are ultimately cultural and institutional barriers. The 
universities, disciplinary societies, funding agencies and other 
stakeholders need to step up to do their part, and I am happy to see 
such a movement starting to take hold.
    I want to thank Congresswoman Johnson once again for her tireless 
work to promote the role of women and minorities in science and 
engineering. I thank all of the witnesses for being here today and I 
look forward to your testimony.

    Mr. Ehlers. Thank you, Mr. Chairman, and I would agree on 
that. I don't have a long opening statement. I have a short 
one. Nevertheless, I ask consent to enter it into the record 
and also just want to thank Dr. Ginther for being here. I've 
had the pleasure of talking to her on the telephone, persuaded 
her to come, and I very much look forward to her testimony. I 
am sure she has much to offer to this hearing.
    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    Today we are examining legislation introduced by my colleague, 
Congresswoman Johnson from Texas, which addresses the biases and 
barriers women face in science and engineering faculty departments. I 
thank Representative Johnson for preparing this thoughtful legislation 
and appreciate her willingness to delve into the details and receive 
testimony from our witnesses today.
    In October this subcommittee held a hearing on the challenges faced 
by female faculty in science and engineering. Our witnesses were a 
dynamic group who spoke about the institutional changes needed and 
highlighted some of the programs the Federal Government currently 
supports in this area. We learned that effective institutional change 
must be systemic, and that sometimes bias hides behind even the 
simplest language used in recommendation letters.
    Today we are going to talk about specific actions the Congress can 
take to address these biases. I hope that we are able to take what we 
learn from our witnesses today and incorporate some of their ideas into 
the final legislation. All of us want to ensure that equitable 
educational opportunities for women pursuing faculty positions are the 
norm and not the anomaly at U.S. colleges and universities. Important 
to this effort is making certain that we have a good understanding of 
the current situation so that we can be sure that federal efforts 
achieve the intended impact.
    I look forward to hearing from our witnesses today.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman. The National Academies report, Beyond Bias 
and Barriers, provided clear guidelines to universities, federal 
agencies, professional organizations and to Congress on what actions to 
take to reduce gender bias at the university faculty level.
    As the legislation has developed, there has been a faint expression 
of concern over being heavy-handed with our scientists and 
universities.
    One thing that I hope to learn from today's hearing, as well as 
from feedback submitted to the Science Committee, is how we can 
encourage university presidents and provosts to provide clear 
leadership in changing the culture and structure of their institutions, 
and deans and department chairs to take responsibility for implementing 
changes to recruiting, hiring, promotion, and tenure practices.
    Beyond Bias and Barriers also recommended that higher education 
organizations form an inter-institution monitoring organization, and 
that scientific and professional societies help set professional and 
equity standards for the activities that they lead, such as awards and 
conferences.
    I have attempted to incentivize the formation of such an inter-
institution monitoring organization, through a one-time competitive 
grant through the Department of Education's Fund for the Improvement of 
Post-secondary Education.
    The provision was accepted into the Higher Education Act, but 
during conference, it was stripped out.
    I am frustrated, Mr. Chairman, by the uphill battle in getting 
equality for women when it comes to reaching the higher echelons of 
scientific achievement.
    As stated in Beyond Bias and Barriers, ``if systematic differences 
between male and female scientific and mathematical aptitude and 
ability do exist, it is clear that they cannot account for women's 
under-representation in academic science and engineering.''
    While I do not intend to be heavy-handed toward our universities, I 
do feel that not nearly enough is being done to educate persons of 
influence on the subtle gender bias that exists and is holding women 
back from achieving at the same level as men.
    Why have our federal agencies not already developed institutional 
policies that are sensitive to women scientists?
    Why is there no federal guideline for administrative leave for the 
purpose of caregiving?
    Why is there no funding mechanism to provide for interim technical 
or administrative support during a leave of absence related to care 
giving?
    Why is there no centralized, federal policy to extend grant support 
time-tables for researchers who take a care giving leave of absence?
    What are federal agencies doing to protect whistleblowers who speak 
out when anti-discrimination laws are not enforced?
    Why is NSF's Survey of Earned Doctorates suddenly repressing data 
on women and minorities in science?
    Mr. Chairman, for the record, I am submitting the most recent 
report, from 2006, entitled, ``2006 Doctorate Recipients from United 
States Universities: Summary Report.'' \1\
---------------------------------------------------------------------------
    \1\ An updated version of the 2006 Doctorate Recipients from United 
States Universities: Summary Report is available at http://
www.norc.org/projects/survey+of+earned+doctorates.htm. The version of 
the report Representative Johnson refers to is available at the Science 
and Technology Committee main office, located in Room 2321 of the 
Rayburn House Office Building.
---------------------------------------------------------------------------
    Beginning with the very first data table, A-1, the NSF suppresses 
data when the numbers are small--the reason given is to ``protect 
confidentiality.''
    Look for yourselves. The data suppression begins on page 113, and 
it stretches all the way to page 174.
    Mr. Chairman, any scientist worth her salt will tell you that 
incomplete data is not worthy of publication.
    This is exactly the kind of practice that we must stop. I will 
fight this for as long as I am in Congress and long afterwards.
    I am also submitting an article from Inside Higher Education that 
highlights the NSF's suppression of this critical data on women and 
minority Ph.D. attainment.
    I am ashamed that the NSF has suppressed this data. I hope that 
Jaqui C. Falkenheim, the NSF project manager for the survey, or whoever 
at that agency decided that this was a good idea, will be told that 
they are wrong.
    I strongly recommend that the NSF immediately return to full 
disclosure of data reporting--even if the numbers are embarrassingly 
small--so that taxpayers, including myself, can understand the complete 
truth about the sad state of women and minority achievement in the 
sciences in our nation.
    With that said, I want to thank you, Mr. Chairman, and Ranking 
Member Ehlers, for your attention to this bill.
    I thank the Diversity & Innovation Caucus for pushing this issue as 
well.
    I thank the American Association of University Women, National 
Coalition for Women and Girls in Education, the Society of Women 
Engineers, the National Science Teachers Association, the American 
Chemical Society and others for supporting this bill.
    The American Association of University Women and the National 
Coalition for Women and Girls in Education have both written support 
letters, and I ask your permission to also submit these for the record.
    Thank you for your indulgence, Mr. Chairman. I yield back.

    [The prepared statement of Mr. Carnahan follows:]

           Prepared Statement of Representative Russ Carnahan

    Mr. Chairman, thank you for hosting this important hearing on the 
role of gender in science and engineering.
    While the status of women in science and engineering academia has 
improved over the last three decades, there are still barriers to 
achieving gender equity. NSF published 2006 data in Science and 
Engineering Indicators 2008 that demonstrated some increases in women 
represented in full-time senior faculty positions at all universities. 
However, women represent no more than 30 percent of senior faculty 
positions in science and engineering fields other than psychology. This 
is an unfortunate statistic and one that the draft legislation under 
the Committee's consideration today seeks to address.
    One of the proposals included are workshops to increase awareness 
of implicit gender bias in grant review, hiring, tenure, promotion, and 
selection for other honors based on merit. I realize that one such 
workshop occurred recently at the Department of Energy and look forward 
to hearing Dr. Blevins' opinions about the workshop's successes and/or 
failures.
    I would like to thank today's witnesses, Dr. Carlson, Dr. Blevins 
and Dr. Ginther. I look forward to hearing all of our witness's 
testimonies.

    Chairman Baird. I thank all of the witnesses. Dr. Ginther, 
you know it is hard to turn down our good friend, Dr. Ehlers. 
And I thank all our witnesses. And with that, I will introduce 
the witnesses so that we can begin the testimony.
    Dr. Lynda T. Carlson is the Director of the Division of 
Science Resource Statistics in the Directorate for Social, 
Behavioral and Economic Sciences at the National Science 
Foundation. Dr. Linda G. Blevins is Senior Technical Advisor in 
the Office of the Deputy Director for Science Programs at the 
Department of Energy. And Dr. Donna K. Ginther, as introduced 
by Dr. Ehlers, is an Associate Professor of Economics and the 
Director for the Center for Economic and Business Analysis in 
the Institute for Policy Research at the University of Kansas.
    As our witnesses should know, we ask folks to limit their 
testimony to five minutes and then we follow by questions. This 
is generally a friendly, bipartisan committee. It is not like 
the spooky ones you see on TV. So we look forward to your 
comments, we will have good discussion, and I thank you for 
being here.
    Dr. Carlson.

   STATEMENT OF DR. LYNDA T. CARLSON, DIRECTOR, DIVISION OF 
SCIENCE RESOURCES STATISTICS (SRS), NATIONAL SCIENCE FOUNDATION 
                             (NSF)

    Dr. Carlson. Chairman Baird, Ranking Member Ehlers, and 
Members of the Subcommittee, I am Lynda Carlson, Director of 
NSF's Division of Science Resources Statistics or SRS. I 
appreciate the opportunity to appear before you today.
    SRS is one of the 14 major statistical agencies, and our 
major responsibility is for data collection and analysis 
related to the entire science enterprise. We produce biennial 
Science and Engineering Indicators as well as Women, Minorities 
and Persons with Disabilities in Science and Engineering 
reports. NSF cannot support the proposed legislation as the 
data collection and analysis requirements will be excessive. 
Let me illustrate with these examples.
    First, NSF itself as part of the grants process currently 
collects annual composite information on demographics, field, 
award type, budget request, review score, and funding outcomes 
for all of its proposals and awards. However, principal 
investigators, or PIs, are not, nor can they be required to 
provide demographic information as a condition of obtaining an 
award because of the Privacy Act. Hence, the demographic 
information collected is incomplete. For example, the number of 
PIs who submitted proposals and did not declare a race or 
ethnicity in 2007 was nearly as large as those who provided a 
response. And over the last 10 years, the proportion of new 
principal investigators reporting their gender has declined.
    Second, I will refer to some lessons we learned in 
conducting two surveys that characterize R&D conducted in the 
federal sector, survey of Federal Funds for Research and 
Development and Survey of Federal Science and Engineering 
Support to Universities, Colleges, and Nonprofit Institutions. 
For these surveys, SRS must obtain data from science funding 
agencies on the type of activity supported and on the funding 
recipient. It has been increasingly difficult for SRS to obtain 
high-quality data in a timely manner from the queried agencies. 
Agencies do not usually keep detailed information about the 
science fields that they support. And even when an agency does 
maintain data by field, it may not conform to SRS's data 
characterization system.
    In short, different agencies maintain their records in 
quite different ways to meet their particular needs, and SRS 
does not have the authority to require funding agencies to 
maintain or transfer needed data.
    As a result of such issues, SRS commissioned the National 
Research Council's Committee on National Statistics to form a 
panel and hold a series of workshops to assist us in revising 
these surveys. The panel was recently formed, and the first 
workshop will be held in June of 2008. The resulting 
recommendations are expected to be released in early 2009.
    A third and final example speaks to efforts to collect data 
on gender. The NSF Authorization Act of 2002 required NSF to 
examine differences in amounts requested and award by gender in 
major federal external grants. SRS contracted with the RAND 
Corporation to conduct the survey. The results were released in 
2005. For this study we had intended to collect data on grants 
by gender from NSF, USDA, all of HHS, and the Departments of 
Defense and Energy.
    Data collection was only feasible from NSF, NIH, and USDA. 
Adequate data on grants, applications, and awards were not 
available for the Department of Defense or Energy or the 
remainder of HHS. From this effort we learned that better 
tracking of gender differences will require that all agencies 
maintain a data system that stores information on all grants 
and investigators and that all agencies include key personnel 
characteristics for each investigator in the application form, 
among other requirements.
    Mr. Chairman, I hope that these examples illustrate the 
complexities of the data collection requirements called for in 
this legislation. The Chief Financial Officer's Grants Policy 
Committee, which is charged with oversight of government-wide 
grants policy initiatives, might be able to provide additional 
insight into such a data collection.
    Thank you.
    [The prepared statement of Dr. Carlson follows:]

                 Prepared Statement of Lynda T. Carlson

    Chairman Baird, Ranking Member Ehlers, and Members of the 
Subcommittee, I am Lynda Carlson, Director of the Division of Science 
Resources Statistics (SRS) within the National Science Foundation 
(NSF). I appreciate the opportunity to testify on Representative 
Johnson's proposed legislation on gender biases and barriers. However, 
NSF cannot support the proposed legislation as its requirements will be 
excessive as they exceed current data collection capabilities.

NSF's Division of Science Resources Statistics (SRS)

    The Division of Science Resources Statistics (SRS) is the federal 
statistical agency responsible for data collection and analysis related 
to the entire science and engineering (S&E) enterprise. The Division's 
responsibilities include data collections and analyses related to the 
S&E workforce, the education of scientists and engineers, and research 
and development (R&D), including federal funding of R&D. We annually 
collect data on R&D in academe and industry, and we periodically 
collect data on R&D funding activities by states and nonprofits. SRS 
staff is responsible for writing and producing the biennial Science and 
Engineering Indicators report for the National Science Board, as well 
as the biennial report Women, Minorities and Persons with Disabilities 
in Science and Engineering, which is required under Section 37 of the 
Science and Engineering Equal Opportunities Act.

Data Collection on Grants Portfolio

    NSF currently collects annual composite information on 
demographics, field, award type and budget request, review score and 
funding outcome for NSF proposals and awards. NSF publishes a summary 
of these data in the annual Merit Review Report, including principal 
investigator (PI) demographics on proposals and awards. However, PIs 
are not, nor can they be, required to provide demographic information 
because of the Privacy Act; therefore, the demographic information 
collected is incomplete. For example, the number of PIs who submitted 
proposals and did not declare a race/ethnicity in 2007 is nearly as 
large as the number who declared minority status. In the last ten 
years, the proportion of new PIs who choose to report their gender has 
been declining.
    Furthermore, the process for collecting and correlating review 
scores across programs and directorates within NSF is complex. For 
example, differences in average review scores across programs and field 
of research are as likely to reflect different reviewer community norms 
as to reflect differences in the actual quality of proposals received. 
Given the variety of review processes and scoring systems used 
throughout Federal Government, coupled with the complexity of 
correlating scores even within agencies, it would be virtually 
impossible for SRS to provide a report to Congress with review scores 
that are in any way comparable across the federal science agencies.

Lessons Learned from Other SRS Surveys

    Over the last several years, SRS has been in the process of 
redesigning two surveys that characterize R&D conducted in the federal 
sector: (1) ``Survey of Federal Funds for Research and Development,'' 
or Federal Funds Survey; and (2) ``Survey of Federal Science and 
Engineering Support to Universities, Colleges, and Nonprofit 
Institutions,'' or Federal Support Survey. The surveys are being 
redesigned to better reflect how R&D is actually conducted in today's 
economy. The redesign was guided in part by a 2005 study that SRS 
commissioned from the National Research Council's Committee on National 
Statistics (CNSTAT), entitled ``Measuring Research and Development 
Expenditures in the U.S. Economy.''
    For the two aforementioned surveys, SRS must obtain data from S&E 
funding agencies on the type of activity supported and on the recipient 
of the funding, among other indicators. It has been increasingly 
difficult for SRS to obtain high quality data in a timely manner from 
the queried agencies. Moreover, agencies do not usually keep detailed 
information about the fields of S&E that they support. Further, even 
when the agency does maintain data by field, those data may not conform 
to SRS's data categorization system. Different agencies maintain their 
records in quite different ways to meet their particular needs and 
operating procedures. SRS may have to work with individual agencies for 
significant periods of time to obtain more comparable data. Because of 
poor data quality and incomplete agency reporting, data on field of S&E 
research has not been collected as part of the Federal Support Survey 
since 1999.
    In response to the issues we have encountered in conducting these 
two surveys, SRS has commissioned CNSTAT to form a panel and hold a 
series of workshops to assist us in their revision. The panel, 
``Modernizing the Infrastructure of the NSF Federal Funds Survey,'' was 
recently formed, and the first workshop will be held in June 2008. The 
panel's report and recommendations, which may help streamline data 
collection for SRS, are expected to be released in early 2009.
    As part of the redesign effort for another SRS survey entitled, 
``Survey of Research and Development Expenditures at Universities and 
Colleges,'' issues with field of study data have been elucidated. 
Recent site visits to sixteen academic institutions have indicated that 
many academic institutions do not capture research field of study at 
the proposal stage. Once a proposal has been funded, the ability to 
capture the field of study for individual proposals varies considerably 
across institutions from easy to quite difficult. Institutions have 
indicated that it would require some effort to educate faculty on how 
to code their research by field, as the methods are not 
straightforward, especially as more and more research is 
interdisciplinary.
    Lastly, SRS is also revising the existing taxonomy(s) of Fields of 
Science in order to capture new and emerging fields. SRS is developing 
a schema to revise the taxonomy in a manner that would allow it to be 
updated on a continuous basis. We expect this project to be finalized 
in two to three years. We will engage in significant consultation with 
the other science funding agencies as part of this activity.

Lessons Learned from a Study of Grants by Gender

    The NSF Authorization Act of 2002 required NSF to ``examine 
differences in amounts requested and awarded, by gender, in major 
federal external grants.'' SRS contracted with the RAND Corporation to 
conduct the survey, and the results were published in a 2005 report 
entitled, ``Gender Differences in Major Federal External Grant 
Programs.''
    The report covered several federal science agencies, or federal 
agencies responsible for at least two percent of federal R&D 
obligations to universities. We had intended that the study collect 
data on grants by gender from NSF, the Department of Defense (DOD), the 
Department of Energy (DOE), the Department of Agriculture (USDA), and 
the National Institutes of Health (NIH). Data collection was only 
feasible from NSF, NIH and USDA; adequate data on grant applications 
and awards were not available from DOD or DOE. According to the report:

         ``[There are] numerous limitations in the information 
        collected in federal agencies' grant application and award data 
        systems. Such limitations hinder the ability to track gender 
        differences in federal grant funding. Better tracking of gender 
        differences in such funding would require that all agencies 
        awarding significant grant funding do the following:

        <bullet>  Maintain a data system that stores information on all 
        grant applications and investigators, including co-
        investigators. Ideally, each agency would have a single data 
        system rather than separate systems for each sub-agency or 
        grant program and the agencies would agree on a common list of 
        key data elements.

        <bullet>  Include in the application form key personal 
        characteristics for each investigator, including gender, race 
        and ethnicity, institution (in a way that can be easily 
        categorized), type of academic appointment for investigators in 
        post-secondary education, discipline, degree, and year of 
        degree.

        <bullet>  Fill in missing personal information, including 
        gender, where possible from other applications by the same 
        investigator.

        <bullet>  Record the amount requested and awarded for each 
        proposal and any score assigned to it by the peer reviewers.

        <bullet>  Clearly identify initial proposals and awards, 
        supplements that involve new funding, and amendments that 
        involve no new funding.''

Cost of Survey Implementation

    Current, simple federal surveys conducted by SRS cost approximately 
$800,000 annually to implement. The costs are incurred by a survey firm 
contracted to collect and process the data. This expense does not 
include the cost of SRS staff, who provide oversight and administration 
of the survey efforts, or the costs of collection and reporting 
incurred by each of the individual federal agencies.
    If NSF were tasked to expand its data collection efforts to include 
the more complex project-specific and demographic data envisioned in 
the proposed legislation, SRS would require additional funding, or we 
would have to reduce other ongoing survey efforts. These costs do not 
include the additional SRS staff time and resources that would be 
required to facilitate the data surveys, nor the additional costs that 
would be incurred by other federal agencies in setting up the requisite 
data systems and annually reporting the data to SRS.

Conclusion

    Mr. Chairman, I hope that I have been able to articulate NSF's 
unique role in gathering and analyzing data about the Nation's S&E 
enterprise. I hope my comments help feed the discussion about how to 
collect indicators adequately to help our nation measure our progress 
in ensuring that there is no gender bias in science and technology.
    In summary, however, SRS does not have the ability to require 
funding agencies to maintain such records. If Congress seeks to require 
such a collection, the Grants Policy Committee, which is charged with 
overseeing government-wide grants policy initiatives and making policy 
recommendations to the Office of Management and Budget, might be able 
to provide additional insight.
    SRS does welcome the opportunity, however, to continue to be 
involved in discussions on this important draft legislation, as we are 
constantly striving to improve our contribution to the policy process. 
NSF looks forward to collaborating with our sister agencies and the 
broader S&E community to more effectively collect and report on 
important data related to innovation and competitiveness. Thank you for 
the opportunity to appear before you, and I am happy to answer any 
questions.

                     Biography for Lynda T. Carlson

    Since 2000, Dr. Lynda Carlson has been the Director of the National 
Science Foundation's Division of Science Resources Statistics. In that 
role, she is responsible for all activities of the Division, a federal 
statistical agency within NSF. Prior to coming to NSF, Dr. Carlson was 
at the Energy Information Administration (EIA) of the Department of 
Energy where she held a variety of positions over 23 years. She is 
internationally known for the design and development of the Nation's 
energy consumption surveys, including the development of a unique 
statistical sampling frame of commercial buildings. Dr. Carlson's last 
position at EIA was that of Director of the Statistical Methods Group 
with responsibility for all statistical activities throughout EIA.
    Dr. Carlson received her M.A. and Ph.D. from the University of 
Illinois at Urbana-Champaign in Political Science and her B.A. from 
Brooklyn College, CUNY. She is a Fellow of the American Statistical 
Association and member of various groups such as AAPOR and AAAS. She 
has served on a series of OMB committees, is a member of the Federal 
Committee on Statistical Methodology, and has served on several NAS 
committees. In 2000, she received the highest departmental award from 
the Department of Energy for her service to that agency.
    Dr. Carlson has written on energy consumption, survey methodology, 
and the science and engineering enterprise.

    Chairman Baird. Thank you, Dr. Carlson. Dr. Blevins?

 STATEMENT OF DR. LINDA G. BLEVINS, SENIOR TECHNICAL ADVISOR, 
   OFFICE OF THE DEPUTY DIRECTOR FOR SCIENCE PROGRAMS, U.S. 
                      DEPARTMENT OF ENERGY

    Dr. Blevins. Chairman Baird, Ranking Member Ehlers, and 
Members of the Subcommittee, thank you for the opportunity to 
testify today. I would like to provide you with some 
information about two gender equity workshops.
    In January of 2006, the academic chemistry community 
pioneered a format for a gender equity workshop. The workshop 
got its start because the chemistry community observed that 50 
percent of their bachelor's degrees went to women, and 35 
percent of their Ph.D.s went to women, but only 13 percent of 
the faculty members in the top 50 university chemistry 
departments were women. Top 50 refers to departments that 
receive the most federal research dollars. The workshop thus 
targeted the participation of the chairs from these 
departments.
    Around the time of the chemistry workshop, two National 
Academies reports were released, Rising Above the Gathering 
Storm and Beyond Bias and Barriers. These two reports 
reinforced the DOE Office of Science's motivation to be 
involved in gender equity workshops.
    In May of 2007, the physics community hosted a workshop of 
its own based on the chemistry model but adding some different 
features. Each of these workshops, while organized by the 
relevant research community, has involved the major funding 
agencies for the given scientific field. For example, the 
chemistry workshop was co-funded and advised by DOE, NSF, and 
NIH. The physics workshop involved DOE and NSF.
    I would like to highlight a few important points about the 
workshops. First, the workshops are community-driven. The 
steering committees are made of distinguished research 
scientists within the discipline, and the workshops are 
designed to create a sense of ownership of the outcomes within 
each scientific community. Involvement of high-level federal 
officials from the relevant funding program seems significant 
in reinforcing the importance of the topical matter. The 
workshop concept uses demographic data and social science to 
examine the underlying causes of gender gaps in science. Data-
driven science is emphasized over anecdotes, and social science 
is presented objectively. Planning such a workshop involves an 
enormous amount of work.
    Each community has a unique demographic and a unique 
culture, which means each workshop may have different features. 
For example, because women are under-represented at all levels 
in physics, that workshop had a session on education issues 
that did not appear in the chemistry workshop.
    Each workshop brings an experienced and influential group 
together to tackle tough issues. Attendance is limited to about 
100 people, and participants include department chairs, 
speakers that include social scientists, federal officials, and 
opinion leaders.
    For physics, managers from 13 DOE national laboratories 
were invited along with the top 50 chairs. Workshops include 
lectures, panel discussions, and break-out sessions. 
Interactive theater and implicit bias demonstrations can shift 
perspectives and encourage community action. Action items are 
developed in the break-out sessions, and participants are asked 
to select and commit to carrying them out. Tools such as 
interactive websites allow the organizers from the communities 
to track progress over time.
    The metrics for success proposed and used so far by the 
communities have been attitude changes as measured using 
approved pre- and post-workshop surveys and tracking of the 
documented commitment by the participants to implement action 
items and their regular follow-up progress reports. For the 
chemistry workshop, these metrics are already demonstrating 
early success.
    The workshops have not revealed differences between 
federally funded research and development centers and 
universities and their potential for implicit bias. There are 
some other differences, though. First, FFRDCs do not always 
have discreet disciplinary units like academic departments. 
Second, while universities have tenure, FFRDCs have various 
promotion systems, and these differences create challenges for 
designing common workshops.
    So development of this workshop series is being driven by 
the scientific communities and has demonstrated some initial 
success. The model for these workshops continues to evolve. The 
agencies funding and advising these workshops have forged good 
working relationship with each other and with the communities 
working to achieve gender equity. And the innovative nature of 
each workshop and of the workshop concept has drawn, and 
continues to maintain, DOE's interest in participating.
    Thank you again, Mr. Chairman, for the opportunity to speak 
before you today, and I would be happy to answer questions.
    [The prepared statement of Dr. Blevins follows:]

                 Prepared Statement of Linda G. Blevins

    Chairman Baird, Ranking Member Ehlers, and Members of the 
Subcommittee, thank you for the opportunity to testify today. I would 
like to provide you with the history of the DOE Office of Science's 
involvement in several gender equity workshops.
    The 2005 demographics of academic chemistry departments as reported 
by Chemical and Engineering News told a striking story that motivated 
the design of a new workshop series. First, an impressive 50 percent of 
chemistry Bachelor's degrees were awarded to women and 35 percent of 
chemistry Ph.D. degrees went to women.\1\ Despite these strong training 
numbers, only 13 percent of the faculty from the ``top 50'' university 
chemistry departments in the U.S. were women.\2\ This disparity between 
the fraction of women obtaining Ph.D. degrees and the fraction of women 
serving as university faculty led the chemistry community to develop a 
workshop concept that targeted the participation of the chairs of the 
top 50 university chemistry departments. Workshop organizers engaged 
the major federal funders of chemistry research--the Department of 
Energy (DOE), the National Science Foundation (NSF), and the National 
Institutes of Health (NIH)--for financial support and workshop 
involvement. A steering committee, whose members were well-recognized 
academic chemists respected for their research contributions, was 
established. The workshop used demographic data and social science to 
examine the underlying causes of the gender gap in university chemistry 
departments.
---------------------------------------------------------------------------
    \1\ C&E News Vol. 83 No. 44, pp. 38-39, 31 October 2005; also Vol. 
84 No. 30, pp. 43-52, July 2006.
    \2\ ``Top 50'' is defined by federal research expenditures. C&E 
News Vol. 83 pp. 38-39, 31 October 2005.
---------------------------------------------------------------------------
    Around the time of the chemistry workshop, the National Academies 
report, ``Rising Above the Gathering Storm: Energizing and Employing 
America for a Brighter Economic Future,'' focused broad public 
attention on issues relating to the future of the physical sciences 
workforce in the United States. Soon after, another Academies report, 
``Beyond Bias and Barriers: Fulfilling the Potential of Women in 
Academic Science and Engineering,'' helped raise awareness that 
unintentional biases can limit women's participation in science. These 
two reports reinforced the DOE Office of Science's motivation to 
support gender equity workshops.
    The chemistry workshop, ``Building Strong Academic Chemistry 
Departments through Gender Equity,'' \3\ was held January 29-31, 2006, 
and included lectures, panel discussions, and breakout sessions. 
Academic leaders, social scientists, and funding agency senior managers 
discussed demographic data and social science findings and used the 
breakout sessions to apply their broad, collective experience to 
identify action items for further work. A thought-provoking interactive 
theater skit on the first night demonstrated potential for implicit 
bias in academic mentoring, with actors staying in character to address 
audience questions. The social science presentations argued that most 
men and women exhibit unintended or implicit bias and that gender 
schemas\4\--hidden assumptions about a person's behavior based on 
gender--can slow women's advancement in academia and other career 
paths. At the conclusion of the workshop, the chairs committed to carry 
out at least two action items apiece from lists developed in the 
workshop breakout sessions.
---------------------------------------------------------------------------
    \3\ http://www.chem.harvard.edu/groups/friend/GenderEquityWorkshop/
index.html
    \4\ Valian, V. (1998). Why so slow? The advancement of women. 
Cambridge, MA: M.I.T. Press.
---------------------------------------------------------------------------
    A report describing the chemistry workshop and resultant action 
items for university and college departments, institutions, and funding 
agencies was released in 2006. Action items dealt with issues such as 
educating others about implicit bias and developing policies that 
facilitate hiring of women, including spousal hiring. Forty-five of the 
56 chairs who attended the workshop visited an interactive website and 
selected action items to implement. Results of pre- and post-workshop 
attitudinal surveys administered by the Committee on the Advancement of 
Women Chemists (COACh) \5\ showed measurable changes in the chairs' 
views. The interactive website was developed by COACh to track progress 
in the chairs' implementation of action items. At the end of the first 
and second years after the workshop, COACh received progress updates 
from chairs. Twenty-five chairs have followed up with COACh to report 
progress this year. The high participation rate in selecting action 
items and following up with progress reports has been encouraging.
---------------------------------------------------------------------------
    \5\ http://coach.uoregon.edu/
---------------------------------------------------------------------------
    The chemistry workshop resulted in shifts in attitude among the 
university chemistry department chairs who participated. These shifts 
were measured using an approved survey instrument developed by COACh 
and the steering committee. Before the workshop, the chairs generally 
felt that the principal factors limiting their ability to hire women 
were beyond their administrative control-factors such as too few 
applicants, candidate loss to other departments, and lack of spousal 
employment opportunities. After the workshop, however, chairs were more 
likely to report the limiting factors were those they could affect, 
such as low faculty commitment to hiring women and lack of financing. 
Additionally, chairs' perceptions of the factors slowing the progress 
of women chemistry faculty changed. A paper reporting these results 
will appear in the archival literature.\6\
---------------------------------------------------------------------------
    \6\ ``Promoting Gender Equity in Academic Departments: A Study of 
Department Heads in Top-Ranked Chemistry Departments,'' J. Greene, P. 
Lewis, G.L. Richmond, and J. Stockard, Journal of Women and Minorities 
in Science and Engineering, In Press (2008).
---------------------------------------------------------------------------
    Inspired by the first workshop and follow-up within the chemistry 
community, the physics community approached the major funders of 
physics research--the DOE Office of Science and the NSF Mathematical 
and Physical Sciences Directorate--about hosting a similar workshop in 
their field. Workshop proposals were submitted and successfully 
reviewed at both agencies. A respected physics workshop steering 
committee was formed, and the time-intensive planning process began. 
The American Physical Society's Committee on the Status of Women in 
Physics\7\ (APS CSWP) spearheaded the planning effort with advice from 
the funding agencies. The workshop, ``Strengthening the Physics 
Enterprise in Universities and National Laboratories,'' \8\ was held 
May 6-8, 2007.
---------------------------------------------------------------------------
    \7\ http://www.aps.org/programs/women/
    \8\ http://www.aps.org/programs/women/workshops/gender-equity/
index.cfm
---------------------------------------------------------------------------
    It was clear from the beginning that physics demographics were very 
different from those of chemistry: In 2005, only 21 percent of 
Bachelor's degrees and 14 percent of Ph.D. degrees in physics were 
awarded to women,\9\ while 2002 data showed that only about seven 
percent of faculty members in the Nation's top 50 university physics 
departments were women.\10\ Thus, in contrast to chemistry, women were 
under-represented in the science of physics at every level. Most of the 
physics workshop design was similar to that of the chemistry workshop, 
but a session on undergraduate and graduate education was added to 
address the demographic imbalance. Managers from DOE national 
laboratories were involved because of the importance of physicists to 
the missions of the national laboratories. Results from the pre- and 
post-workshop surveys are currently being analyzed, and implementation 
of action items is being tracked by the APS CSWP. A report from the 
physics gender equity workshop is in the final stages of preparation.
---------------------------------------------------------------------------
    \9\ http://www.aip.org/statistics/
    \10\ ``A National Analysis of Diversity in Science and Engineering 
Faculties at Research Universities,'' Dr. Donna J. Nelson, Norman, OK. 
January, 2005. http://cheminfo.chem.ou.edu/?djn/diversity/briefings/
Diversity%20Report%20Final.pdf
---------------------------------------------------------------------------
    Inspired by the gender equity workshops, the chemistry community 
organized a department chair workshop addressing racial and ethnic 
equity, held September 24-26, 2007 with sponsorship from DOE, NSF, and 
NIH. The materials sciences and engineering community is currently 
planning a gender equity workshop of its own, with anticipated co-
funding from DOE and NSF, to be held May 18-20, 2008.
    The remainder of my testimony will focus on the questions proposed 
in the invitation letter for this hearing.

1.  Based on your own experience in helping to organize workshops to 
address gender bias in the chemistry and physics communities in 2006 
and 2007, what are the elements of an effective workshop? In answering 
this question, please address workshop content, format, speakers, and 
participant categories, in addition to any other elements that are 
important to an effective workshop.

    To provide a little background, I personally attended the 2006 
chemistry gender equity workshop and was a federal advisor to the 
steering committees for the 2007 physics gender equity workshop and the 
2007 chemistry racial and ethnic equity workshop. A few observations 
can be made about the workshop series as a whole. Each workshop 
requires months of hard preparation work by the relevant scientific 
communities before the meeting occurs. A distinguished steering 
committee, comprised of five to ten highly respected researchers, 
encourages university department chairs to attend a given workshop and 
participate fully. At least one steering committee member should be 
expert in the social sciences addressing women in science to provide 
insight and planning advice from that perspective. The workshops have 
been structured by the communities and, as a result, the communities 
accept a strong sense of ownership of the outcomes. Follow-up 
activities that include reports of progress on action items are as 
important as the workshop itself, as they maintain attention on the 
action items.
    Workshop attendance is by invitation and is typically limited to 
about 100 people to facilitate information exchange. Participant travel 
expenses are supported by federal agencies so that cost is not an 
impediment to participation. The chairs are selected from departments 
that produce the most Ph.D.s and/or receive the most federal research 
dollars. Such chairs are typically role models and have the ability to 
influence their own faculty as well as other department chairs. 
Bringing such a peer group together encourages mutual cooperation 
toward common goals. Steering committee members sometimes engage 
funding agency officials in encouraging chairs to attend. When a chair 
is unavailable, special effort is made to have him/her nominate an 
influential colleague with demonstrated departmental leadership. Each 
workshop audience includes a few opinion leaders, defined as either 
distinguished disciplinary scientists with sway over their colleagues 
or other scientists with unique expertise relevant to equity for under-
represented groups in science. These opinion leaders are carefully 
chosen by the steering committee for their potential to stimulate 
discourse throughout the workshop. The presence of high level federal 
officials from the relevant disciplinary funding programs seems 
important, as they reinforce the importance of gender equity among the 
science community participants.
    For workshop content, data-driven science is emphasized over 
anecdotal evidence. Social science is presented objectively and 
dispassionately. Breakout sessions have ranged from unstructured 
discussions of generic questions to structured scenario analyses. 
Inviting a science writer to help produce a workshop is also a good 
idea. Creative touches such as interactive theater and implicit bias 
demonstrations can shift perspectives and create group experiences that 
encourage community action.

2.  What metrics should be used to evaluate the success of such 
workshops in changing individual behavior and institutional culture 
related to gender equity in academic science and engineering?

    The success metrics proposed and used by the communities have been 
(1) attitudinal change as measured using pre- and post-workshop surveys 
and (2) tracking of the documented commitment by participants to 
implement action items and to provide follow-up via interactive 
websites. Efforts have been made to keep the pre- and post-workshop 
surveys similar so results for different community cultures and 
workshop features can be compared. Involvement of COACh with survey 
instruments has helped maintain continuity. Survey results are still 
being analyzed from workshops held after the chemistry gender workshop. 
The chemistry department chairs who reported back to COACh two years 
after that workshop have described implementation of a number of new 
policies to encourage gender equity, including reduced teaching load 
after childbirth, stopping the tenure clock, mandatory mentoring plans 
for junior faculty, more inclusive appointment procedures for 
influential committees, changes in interview methods to better assure 
fairness, and scheduling of faculty meetings during business hours. 
Communities planning future workshops may consider developing other 
metrics that could be evaluated by the funding agencies as part of 
proposal merit review.
    A recurring theme from these workshops and other stakeholder input 
is the need to collect and track demographic data. Increased 
percentages of women could indicate that positive changes are taking 
place. Some science communities, like chemistry and physics, have ready 
access to data from professional societies. Others, like the materials 
sciences and engineering community, need to develop sources for such 
data.

3.  Are there challenges in overcoming gender bias that are unique to 
the National Laboratories? Should the workshops have sessions that are 
tailored specifically to National Laboratory participants?

    The workshops have not revealed differences in the potential for 
implicit bias between Federally Funded Research and Development Centers 
(FFRDCs) and universities. Social science research and understanding 
suggest that implicit bias would exist in many technical environments, 
which might include universities, national laboratories, and other 
FFRDCs. Thus, approaches to identify and raise awareness of implicit 
bias could be similar in any of them.
    The physics gender equity workshop did, however, highlight some 
organizational differences between FFRDCs and universities that create 
workshop planning challenges. First, FFRDCs do not necessarily have 
discrete disciplinary units as do academic departments. FFRDC managers 
lead groups, divisions, directorates, branches, centers, etc., with 
various disciplines represented among tens to hundreds of scientists. 
The development of surveys that would apply to both university and 
FFRDC structures as well as the selection of chair rank- and scope-
equivalent FFRDC managers have proven to be challenging in organizing 
workshops and devising data collection tools. A single FFRDC manager 
with full responsibility and authority to identify problems and 
implement changes for a scientific discipline may not exist. Second, 
universities typically have tenure systems, while FFRDCs can have 
various promotion systems. Some FFRDCs have versions of tenure; some 
operate more like corporations. No one model applies to all.
    To date, workshop information has emphasized academic practice; it 
must be adapted to be relevant to FFRDCs. Structuring some workshop 
sessions specifically for FFRDCs is a good suggestion that may provide 
more information more useful for them.
    Despite their organizational differences, laboratories have been 
influenced by findings from the gender equity workshops. For example, 
Brookhaven National Laboratory undertook an activity inspired by the 
two gender equity workshops. Brookhaven had sent a representative to 
the 2006 chemistry workshop and another to the 2007 physics workshop. 
These individuals returned to the laboratory with specific ideas about 
steps that could be taken toward improving gender equity and, after 
discussion, laboratory management decided to form a new team. The 
Family Friendly Committee, a group of 15 laboratory employees from 
various job levels, was commissioned by the laboratory director and met 
nine times during its first year. The Family Friendly Committee, in 
turn, formed subcommittees to consider such topics as alternate work 
schedules, leave policies, and family services. The subcommittees 
examined current practices at Brookhaven and developed some 15 
suggestions for improvement. These recommendations are currently being 
assembled into an internal report to laboratory management. The Family 
Friendly Committee also hosted two distinguished gender equity experts 
for day-long visits to the laboratory. Each of their seminars attracted 
about 100 people.
    The workshop series continues to be driven by the scientific 
communities, which have been encouraged by the demonstrated success of 
their initial efforts. Each science discipline has a unique culture and 
demographic. These differences necessitate somewhat different features 
for each workshop. The model for these workshops continues to evolve, 
and communities wanting to organize such workshops for themselves 
continue to propose innovative ideas for consideration by appropriate 
funding agencies. The agencies funding and advising these workshops 
have forged good working relationships with each other and with the 
communities working to achieve gender equity. The innovative nature of 
the workshop concept has drawn and maintains DOE's interest in 
participating.
    That concludes my testimony, Mr. Chairman. Thank you, again, for 
the opportunity to speak before you today. I would be happy to answer 
any questions the Committee may have.

                     Biography for Linda G. Blevins

    Dr. Linda G. Blevins is a Senior Technical Advisor in the Office of 
the Deputy Director for Science Programs in the Department of Energy's 
(DOE) Office of Science. She joined the staff of the Deputy Director 
for Science Programs in November 2007 to provide technical advice on 
many aspects of science program management. From April 2006 through 
November 2007 she served as Technical and International Advisor in the 
DOE Office of Basic Energy Sciences. From July 2004 through March 2006, 
she was the National Science Foundation (NSF) Program Director for 
Combustion and Plasma Systems while on a leave of absence from the DOE 
Combustion Research Facility at Sandia National Laboratories (SNL), 
where she began working in 2000. From 1996-2000, Dr. Blevins was on the 
research staff of the National Institute of Standards and Technology 
(NIST) in the Building and Fire Research Laboratory. She received a 
Ph.D. from Purdue University in 1996, a M.S. from Virginia Tech in 
1992, and a B.S. summa cum laude from the University of Alabama in 
1989. All of her degrees are in mechanical engineering.
    Dr. Blevins has served on the Executive Board of the California 
Biomass Collaborative, the Executive Committee of the Western States 
Section of the Combustion Institute, the University of Alabama (UA) 
College of Engineering Leadership Board, and the UA Mechanical 
Engineering Advisory Board. She is a University of Alabama Department 
of Mechanical Engineering Distinguished Fellow. Dr. Blevins is also a 
member of the American Society for Engineering Education, the American 
Society of Mechanical Engineers, the Combustion Institute, the American 
Institute of Astronautics and Aeronautics, Pi Tau Sigma, Tau Beta Pi, 
and the Women's Council on Energy and Environment. She was a 
contributor to the book, Giving Much/Gaining More: Mentoring for 
Success, written by Emily M. Wadsworth and published by Purdue 
University Press in 2002. At Purdue, she was a NSF Fellow, a Clare 
Boothe Luce Fellow, and a Link Foundation Energy Fellow.
    Her areas of research expertise are soot formation, instrumentation 
for probing high temperature gas/particle mixtures, gaseous pollutant 
and particulate formation, and combustion of natural gas, coal, and 
biomass. Her research at NIST and SNL was funded by the National 
Aeronautics and Space Administration, the Strategic Environmental 
Research and Development Program, the DOE, the Air Force Research 
Laboratory, and the NIST Advanced Technology Program intramural 
program. She is author or co-author of 22 archival journal articles and 
more than 75 reports and conference papers.
    Dr. Blevins currently serves on the Research Business Models 
Subcommittee of the National Science and Technology Council's Committee 
on Science. As part of her role in the Office of Science, she serves as 
the program manager for cross-cutting efforts such as the National 
Academies' America's Energy Future project. Dr. Blevins also advises 
the Deputy Director for Science Programs on Office of Science policies 
related to the management of science programs and research portfolio 
integration across the program offices within the Office of Science and 
DOE and with other federal agencies.

    Chairman Baird. You folks are amazing. We had four seconds 
left on your time clock. This is unprecedented. Let us see if 
Dr. Ginther can hit the mark as well. Dr. Ginther, thank you 
very much.

    STATEMENT OF DR. DONNA K. GINTHER, ASSOCIATE PROFESSOR, 
  DEPARTMENT OF ECONOMICS; DIRECTOR, CENTER FOR ECONOMIC AND 
            BUSINESS ANALYSIS, UNIVERSITY OF KANSAS

    Dr. Ginther. Chairman Baird, Ranking Member Ehlers and 
distinguished Members of the Subcommittee, thank you for the 
opportunity to testify today on the pending legislation. I am 
an economist specializing in research on academic labor 
markets. My NSF-funded research examines the question, does 
science discriminate against women?
    My research shows that women who have children are less 
likely to enter academic science careers. Thus, the single most 
important step that Congress can take to help women is to allow 
universities to count childcare facilities toward indirect 
costs in order to expand the availability of childcare for 
academic caregivers.
    I have been asked to comment on data availability related 
to gender disparities and specific proposals of the Act. I 
comment on these now.
    In terms of data, I used the NSF's survey of doctorate 
recipients in my research. This is an excellent data source. 
However, with all data, there are some limitations. I find that 
there are no gender gaps in the promotion of scientists who 
tenure or full professor. I find, however, gender gaps in the 
promotion of social scientists, specially in my own discipline 
of economics, and I find gender gaps in salary at the full 
professor level.
    However, I cannot attribute all of these gender gaps to 
bias because there are key factors missing in the data that 
might explain the gender gap. The first is productivity. There 
is no availability of annual publications, citations, and 
annual patents. Second will be dual career concerns. We don't 
have information on spouses' education, employment, and 
earnings. Finally, it would be useful to have information on 
caregiving, time women spend in childcare and house time work.
    Now, I turn to specific aspects of the proposal. In terms 
of the workshops on gender bias, the goal is that information 
about implicit bias will lead to changes in behavior. First, 
when implementing these workshops, a valid research design is 
essential. Treatment and control groups should evaluate the 
same proposal, and then any difference in evaluation can be 
judged as a result of these workshops on bias. We need to 
evaluate the workshops based on outcomes.
    Second, it is important to provide training for the 
principal investigators who supervise post-docs because this is 
where the system seems to break down for women.
    Third, I recommend that we expand these workshops to 
include mentoring activities for both post-docs and junior 
faculty. Mentoring for junior faculty complements mentoring for 
evaluators and treats both sides of the problem.
    Second, the Act calls for extending grant support for 
caregiving. Both the NSF and NIH provide for no-cost extensions 
of grant monies, and these practices should be implemented 
across federal funding agencies.
    Finally, I have been asked to comment on the federal role 
in gender equity. First and foremost, the Federal Government 
should provide grant support to caregivers through direct and 
indirect costs. We should count daycare facilities toward 
indirect costs, therefore subsidizing access to daycare on 
campus, and federal guidelines should be modified to allow 
charging grants for childcare during conferences and for travel 
for small children to conferences.
    Second, we need to provide financial support for improved 
data collection and research analysis in order to understand 
the gender disparities and point to solutions to these 
problems.
    Third, we need to evaluate gender intervention programs 
based on outcomes and disseminate best practices. ADVANCE can 
provide a model for other federal agencies.
    Mr. Chairman, once again, I thank you for the opportunity 
to testify today. The under-representation of women in academic 
science results from more than implicit or explicit bias. 
Although bias may play a role, my research suggests that the 
difficulties women face in balancing work and family in the 
post-doctoral years cause too many women to leave science. 
Immediate childcare support on campus for graduate students, 
post-doctoral students and faculty, better data, and greater 
access to that data and rigorous evaluations of interventions 
will allow for a more complete picture of the problem and point 
to necessary solutions. I will be happy to answer any questions 
about my testimony.
    [The prepared statement of Dr. Ginther follows:]

                 Prepared Statement of Donna K. Ginther

Introduction

    Chairman Baird, Ranking Member Ehlers and distinguished Members of 
the Subcommittee, thank you for the invitation to testify today. It is 
an honor for me to comment on specific provisions in the legislation 
pending before the Subcommittee.
    My research, professional, and university service has centered on 
understanding the issues related to the advancement of women in science 
and social science careers and engaging in institutional transformation 
efforts to affect change for women academics. I have published eight 
articles and written six additional working papers on the topic of 
gender differences in employment outcomes in academia.\1\ In 2003 I 
received a National Science Foundation grant to investigate ``Gender 
Differences in Employment Outcomes for Academics in Science and Social 
Science'' SES-0353703, which has provided financial support for this 
research agenda. In addition, I have served as a co-Principle 
Investigator for two NSF ADVANCE Institutional Transformation grant 
proposals submitted by the University of Kansas. I serve on the Board 
of Directors of the Committee of the Status of Women in the Economics 
Profession of the American Economics Association where my main duty is 
to run national mentoring workshops for junior faculty. Finally, I am 
currently the Chair of the Faculty Compensation Committee at the 
University of Kansas where I have worked to create and implement tenure 
stop-clock and modified instructional duties policies for faculty 
engaged in family caregiving responsibilities. In these many 
capacities, I feel qualified to comment on Fulfilling the Potential of 
Women in Academic Science and Engineering Act of 2008.
---------------------------------------------------------------------------
    \1\ These publications and working papers are listed in the 
references.
---------------------------------------------------------------------------
    My research shows that women who have children are less likely to 
enter academic science careers. The single most important step Congress 
can take to fulfill the potential of women in academic science is to 
allow universities the opportunity to count child care facilities 
toward indirect costs in order to expand availability of childcare for 
academic caregivers.

Summary of Research Results

    Many studies, most recently the National Academies Report, Beyond 
Bias and Barriers, have documented gender differences in hiring, 
salary, and promotion. However, interpreting the causes of gender 
disparities in employment outcomes requires an in-depth examination of 
the data.
    Economic theory provides the underpinnings of my research on these 
issues. Economists start by assuming that employment outcomes are 
determined by market forces. Wages and hiring are determined by the 
supply of and demand for Ph.D. scientists. Equally productive workers, 
regardless of gender, will be paid the same and hired in similar 
numbers given market forces. Given these assumptions, one should not 
observe hiring, promotion, and salary differences by gender. However, 
persistent gender wage and employment differentials persist on average 
in the market as a whole (Altonji and Blank, 1999) and for scientists 
in particular (Ginther, 2001 2006).
    Beginning with Becker's seminal work on discrimination (Becker, 
1971), economists have developed models to understand gender and racial 
disparities in employment outcomes. Becker argues that taste-based 
discrimination (prejudice) will be eliminated by competitive forces. As 
a result, bias and prejudice are ruled out as explanations of the 
gender gap unless all other possible explanations posited by economic 
theory have been disproved. One alternative to discrimination, 
individual ``preferences'' or choices, are most-often used to examine 
the gender gap. Preference-based explanations argue that gender 
differences in employment outcomes result from choices, in particular 
differences in productivity. Since theory holds that equally productive 
workers are paid or promoted the same, it follows that gender 
differences in employment outcomes are the result of differences in 
productivity. A second preference-based explanation is that women 
choose to marry and have children, which in turn affects their 
attachment to their careers and overall productivity.
    If the researcher cannot explain the gender differences in 
employment outcomes using one of the above explanations, then the 
residual gender difference in hiring, promotion, or salary may be 
attributed to discrimination. However, economists continue to search 
for rational explanations--ones that will not be eliminated by 
competitive forces. Statistical discrimination suggests that imperfect 
information on the part of employers generates wage differentials. In 
this model, an employer attributes the average characteristics of a 
group to an individual member of this group--essentially, the employer 
uses a stereotype in making hiring decisions or setting wages. As a 
result, we observe gender differences in employment outcomes. However, 
direct measures of statistical discrimination are difficult to come by. 
Thus, discrimination may be inferred when other plausible explanations 
have been ruled out.
    Given these principles, my research poses the question: Does 
Science Discriminate Against Women? I have evaluated gender differences 
in hiring, promotion, and salary. I find that gender differences in 
hiring are largely explained by the presence of children--mothers are 
less likely to obtain tenure-track jobs in science and social science 
(Ginther and Kahn forthcoming, 2006). Once women are on the tenure 
track, we find no significant gender differences in promotion to tenure 
or full professor in the sciences (Ginther and Kahn forthcoming). 
However, women are much less likely to get tenure or be promoted to 
full professor in the social sciences, especially in economics (Ginther 
and Kahn 2004, 2006). Finally, I find that female full professors in 
the sciences earn significantly less than men and the gap is not fully 
explained by observable characteristics (Ginther 2001, 2003, 2004, 
2006c).
    Although I document substantial gender gaps in promotion and 
salaries, I cannot rule out the fact that productivity differences 
explain the salary gap in science and the promotion gap in social 
science. Also, the results in Ginther and Kahn (forthcoming) suggest 
that factors related to marriage and children during the postdoctoral 
period reduce the number of women in tenure track academic science. 
Until we have better data, as an economist, I am not in a position to 
conclude that bias is the sole determinant of the gender gap in 
science.\2\
---------------------------------------------------------------------------
    \2\ Better data does make an important difference. In Ginther and 
Kahn (2004) we collect publication data and find that the gender gap in 
promotion in economics cannot be explained by productivity differences. 
These results indicate that bias likely explains the gender promotion 
gap in economics.

Data Needed to Understand Gender Disparities

    My research on gender differences in employment outcomes has used 
the Survey of Doctorate Recipients collected by the NSF. The SDR is the 
best data available for studying career outcomes of science doctorates. 
Like all data, the SDR is not without limitations. Namely, the SDR 
lacks information on academic productivity, publications and citations 
that would allow researchers to determine whether productivity instead 
of bias is the underlying cause of the gender gap in salary and 
promotion.
    Although the SDR has collected information on publications and 
patents, the data are not available in every year of the survey and 
therefore cannot help us understand the point in a person's career 
where things turn around. Further, the SDR does not contain information 
on the quality of publications measured by citations. First and 
foremost, we need information on academic productivity measured by 
publications, citations, and journal impact in order to discern whether 
productivity differences explain the gender gap. Second, information on 
the size and duration of federal grants would provide another 
indication of scientific productivity. One could then examine the 
correlation between grant funding, publications, and citations to 
create a measure of the return on the federal investment in science. 
Finally, patent applications and patents granted from the U.S. Patent 
and Trademark Office could be included in the data set.
    In 2003, I submitted ``Gender Differences in Employment Outcomes 
for Academics in Science and Social Science'' SES-0353703 to the NSF. 
This grant proposed to merge publication data from Thomson-ISI's Web of 
Science onto the SDR. I submitted this grant because reviews of the 
previous proposal indicated that SDR data without productivity measures 
was insufficient to answer the research question that I had posed. My 
grant was funded in 2004, and the creation of the SDR Productivity 
Database has been a work in progress ever since.
    Essentially, a proposal to merge SDR data with other data sources 
puts legitimate research of importance to Congress at odds with the 
Confidential Information Protection and Statistical Efficiency Act of 
2002. It took until 2006 for NSF to establish a policy permit matching 
SDR data with other sources. Since 2006, I have drafted several 
revisions of the data matching proposal as NSF gathered the necessary 
data to make the match a reality. In the interim, the NSF funded a 
research conference, ``Collaborative Research: Workshop on linking NSF 
SED/SDR Data to Scientific Productivity'' SRS-0725475 which brought 
together researchers interested in using the SDR Productivity data, 
statistical experts on linking data sets, and staff from the NSF 
Division of Science Resource Statistics to discuss the issues involved 
in creating the data with the least amount of matching error, ensuring 
its confidentiality, and providing access to the research community.\3\
---------------------------------------------------------------------------
    \3\ Information from this conference is available at http://
www.albany.edu/?marschke/Workshop/
---------------------------------------------------------------------------
    The creation of the SDR Productivity Database is still a work in 
progress. Since my original proposal, I have expanded the scope to 
including matching the SDR with U.S. Patent and Trademark Office patent 
data as well. I am exploring the possibility of merging information 
from the NIH trainee database as well as their grants database onto the 
SDR in order to examine the effect of early NIH fellowship awards on 
later career outcomes. Once the data are created, I plan to use it to 
evaluate the gender gap in salary and promotion in academic science in 
order to draw more definitive conclusions about the explanations for 
the gap.
    Additional data beyond productivity would provide greater insight 
into the under-representation of women in science. To understand the 
effect of marriage and children during the post-doctoral period on the 
gender gap in obtaining a tenure track job, new questions would need to 
be added to the SDR survey instrument. These would include:

        <bullet>  Number, length, and institutional affiliation of 
        post-doctoral appointments

        <bullet>  Spouse information including education, employment 
        and earnings

        <bullet>  Childcare and housework time This series of questions 
        would allow researchers to determine whether the post-doctoral 
        process, work-family tradeoffs, or a combination of both lead 
        to fewer women in academic science.

    In addition to the SDR, I recommend that federal agencies such as 
the NSF and NIH work with professional societies to collect information 
on the demand for scientists. In particular, researchers could make use 
of data on the number of academic and non-academic jobs available in 
scientific fields.\4\ Information on the demand for scientists measured 
by the number of job openings could then be compared with the number of 
doctorates granted in the Survey of Earned Doctorates. This comparison 
would allow researchers and policy-makers to identify the effect of 
supply and demand on the market for scientists.
---------------------------------------------------------------------------
    \4\ For example, the American Economic Association publishes Job 
Openings for Economists which contains a monthly list of all jobs for 
economics doctorates. This information could be compiled annually to 
get a count of jobs available as a measure of demand for economists.

Workshops on Gender Bias

    The proposed legislation mandates holding national workshops to 
educate grant review panels and department chairs about methods that 
minimize the impact of gender bias in evaluation. These workshops are 
likely modeled after an initiative in academic chemistry departments 
(http://www.chem.harvard.edu/groups/friend/GenderEquityWorkshop/). The 
goal of these workshops is to inform individuals about gender bias and 
its impact with the hope being that rational scientists who are 
presented with research that contradicts their prior beliefs will 
change both their attitudes and behavior. These changes will then 
translate into better outcomes for women in academic science. I 
strongly support the goal of this initiative.
    However, I have a few comments and concerns about this proposal. 
First, the effectiveness of the proposed workshops needs to be judged 
by its impact on evaluation outcomes. All too often, people assess 
attitudes before and after a workshop and if the attitudes have 
changed, the workshop is judged a success. Attitude change is often 
fleeting, and success should be measured not simply by reference to 
internal states but by reference to external outcome variables.
    To evaluate the effectiveness of the gender bias workshops, a valid 
research design is critical. First, I suggest having a treatment and 
control group evaluate the same request for funds in a funding panel 
setting. The funding agency could use previously evaluated proposals 
from prior years as the control group and then have a ``treatment'' 
review panel that participated in a gender workshop evaluate the 
proposals a second time. Any differences in evaluation between the 
treatment and control group scores can then be attributed to the gender 
bias workshop--the `treatment.' Second, the review panel should focus 
on funding for individuals such as postdoctoral fellowships. This would 
reduce any bias related to the quality of the research proposal and 
would mimic evaluations of individuals that occur throughout scientific 
careers (e.g., for promotion and tenure). Researchers should then 
compare the evaluation scores of the same proposal by the treatment and 
control groups. If there are statistically significant differences in 
evaluations, this would be evidence that bias has a causal effect on 
funding outcomes. Once this fact has been established, it would make 
sense to implement these workshops as broadly as possible.
    A second concern has to do with the problem of motivation among 
workshop participants. Changing beliefs is difficult, and workshops 
like this will be successful if the people who attend are motivated by 
the purpose and methods. I posit that this will not be a problem for 
grant review panelists, who are working on behalf of the funding 
agencies. However, I remain skeptical about the workshops' 
effectiveness among department chairs. While this may vary depending on 
the discipline, in Economics (where faculty typically believe in 
efficient labor markets), department chairs are likely to be a hostile 
audience. I think these workshops have to be structured and 
participants motivated very carefully to impact these decision-makers.
    Third, my research shows that women leave academic science during 
the postdoctoral period. Gender workshops focused on grant review 
panelists and department chairs would seem to miss the most critical 
group that could affect change for women in academic science--the post-
doctoral supervisors. Thus, it makes sense that principle-investigators 
who are supervising post-doctoral students would be an important target 
audience for these workshops.
    Finally, I recommend that the Subcommittee consider expanding the 
scope of the workshops to include mentoring activities for post-
doctoral students and junior faculty in the science disciplines. COACh 
in chemistry and CeMENT in economics provide excellent examples of 
existing initiatives. I am currently serving as the Coordinator of the 
CeMENT National mentoring workshops for the Committee on the Status of 
Women in the Economics Profession. These workshops are funded by the 
NSF and the American Economic Association and are designed to help 
junior economists overcome the tenure hurdle, with a special focus on 
addressing the unique challenges that women face at the beginning of 
their careers. The workshops are aimed at junior faculty in 
institutions where tenure is primarily based on research output. At the 
workshops, participants are arranged into small groups based on their 
research areas and matched with senior mentors. The format and 
curriculum are designed to create and cement relationships among the 
participants, as well as between the participants and the mentors. 
Large group sessions address the publication process, grant writing, 
teaching, professional activities, the tenure process, and work-life 
balance. Small group sessions consisting of researchers in the same 
field provided feedback on junior scholar research papers and grant 
proposals.
    As with most mentoring workshops, the participants are pleased with 
the information provided to them. However, the evaluation of the 
program does not end with participant surveys.
    CeMENT is now in its third wave of six randomized trials designed 
to evaluate the effect of mentoring on career outcomes. Each workshop 
has had over 80 applicants of which approximately half are randomly 
invited to the workshop. The CeMENT research team follows the CeMENT 
treatment and control groups for several years to evaluate whether or 
not mentoring has an impact on publications, grants, and ultimately, 
the tenure decision. CeMENT is the only experimental evaluation of 
mentoring that we are aware of. We hope to have preliminary results to 
report in the coming year.
    The mentoring workshops can complement the proposed workshops for 
review panels, postdoctoral supervisors, and department chairs. By 
providing information and education to both sides of the process, we 
can have a larger impact and expect to see more change than addressing 
either side independently.

Extending Grant Support for Caregiving

    Both the NSF and NIH provide for no-cost extensions of grant 
monies. The NIH website indicates that grants can be extended because 
of caregiving responsibilities (http://grants.nih.gov/training/
faq<INF>-</INF>childcare.htm). These practices can and should be 
implemented across federal funding agencies.

Federal Role in Gender Equity

    Throughout this testimony I have argued for the need for better 
data to evaluate gender disparities, more effective evaluation of 
gender bias workshops, and the addition of mentoring workshops. I will 
now make specific recommendations that will allow the Federal 
Government to directly address barriers to gender equity in academic 
science.

    1. Provide grant support to caregivers through direct and indirect 
costs. Availability of daycare on campus is in short-supply. No faculty 
member can be productive if they are preoccupied with the care of their 
children while they are at work. The Federal Government should allow 
universities to count facilities for daycare provided on campus towards 
indirect costs, in particular, the number of spaces available for 
infant care.\5\ This would provide a subsidy for the expansion of 
daycare centers on campus which would free up the time of caregivers. 
In addition, I want to echo Myron Campbell's testimony before the 
Committee in recommending that Federal OMB guidelines\6\ be modified to 
allow faculty members to charge grants for the cost of childcare during 
a conference, or the cost of having small children travel to 
conferences be charged against direct or indirect grant costs (http://
democrats.science.house.gov/Media/File/Commdocs/hearings/2007/research/
17oct/Camp bell<INF>-</INF>testimony.pdf).
---------------------------------------------------------------------------
    \5\ According the NIH website http://grants.nih.gov/training/
faq<INF>-</INF>childcare.htm, no NIH grantee covers childcare as an 
indirect cost.
    \6\ http://www.whitehouse.gov/omb/circulars/a021/a021.html

    2. Provide financial support for improved data collection and 
research analysis to better understand gender disparities in academic 
science. The SDR Productivity Database described previously is very 
much a work in progress. Additional funding could expand the scope of 
the database and improve its quality. In particular, information on 
publications, citations, and patents should be updated with each new 
wave of the SDR. Both the NSF and President Bush's science advisor, 
John Marburger, cite the need to devise new measures of the status of 
science and technology (S&T) in the economy, as it is widely believed 
that current formulations insufficiently represent current S&T 
practices. Linking existing data sets together provides several 
advantages in producing new information on S&T because of the time it 
takes to implement changes to existing national surveys. I justify 
matching existing data along a number of dimensions. First, innovation 
in the U.S. changes more rapidly than the data are collected. 
Researchers and the NSF can save time by matching existing data sets to 
measure and understand changes in innovation. Second, matched data are 
complementary to and enhance existing national surveys. The findings 
from research using the matched data can help in reformulating national 
surveys and suggest modules that could explore more fully phenomena 
discovered in the matched data. Third, matched data provide increased 
flexibility for research. Researchers will not need to wait up to ten 
years to gain access to revised national surveys. Finally, matched data 
will allow researchers and policy-makers to examine questions that have 
not been adequately addressed because of data limitations.
    In addition to matched data, questions should be added to the SDR 
that directly address the post-doctoral experience, education and 
employment of the spouse, and time allocated to caregiving duties.
    Once these data are created, steps must be taken to maintain the 
confidentiality of the data while providing broad access to the 
research community. I recommend two approaches to confidentiality. 
First, synthetic data could be site-licensed to individuals in research 
community to allow preliminary estimates to be performed. Second, the 
NSF should explore technological solutions for maintaining the 
confidentiality of the SDR Productivity Database such as a virtual 
private network with encrypted access. Final estimates could be 
performed on the secured data.

    3. Evaluate gender intervention programs and disseminate best 
practices. Since its inception in 2001, the NSF ADVANCE program has 
funded 32 institutional transformation grants as well as several 
leadership grants such as the CeMENT workshops. Each institution has 
devised interventions to improve the climate, hiring, retention, and 
compensation of women in science. This year, the NSF has begun an 
evaluation to document the effectiveness of institutional 
transformation programs. It is my hope that the evaluation results in a 
series of best-practices that can be used as a model for other federal 
agencies.

Conclusion

    Mr. Chairman, once again I thank you for this opportunity to 
testify today. The under-representation of women in academic science 
results from more than implicit or explicit bias. Although bias may 
play a role, my research suggests that the difficulties women face in 
balancing work and family and in the post-doctoral years cause too many 
women to leave science. Immediate childcare support on campus for 
graduate students, post-doctoral students, and faculty, better data and 
greater access to the data, and rigorous evaluation of interventions 
will allow for a more-complete picture of the problem and point to the 
necessary solutions.

References:

JG Altonji and RM Blank (1999). ``Race and Gender in the Labor 
        Market.'' Handbook of Labor Economics, Volume 3, Eds. O. 
        Ashenfelter and D. Card. Amsterdam: Elsevier Science.

GS Becker (1971). The Economics of Discrimination, 2nd edition. 
        Chicago: University of Chicago Press.

DK Ginther (2001). ``Does Science Discriminate against Women? Evidence 
        from Academia, 1973-97.'' Federal Reserve Bank of Atlanta 
        Working Papers 2001, no. 02 (2001): 66. http://
        www.frbatlanta.org/publica/work<INF>-</INF>papers/wp01/
        wp0102.htm

DK Ginther (2002). ``Gender Differences in Employment Outcomes for 
        Academics in the Social Sciences.'' Mimeo, University of 
        Kansas.

DK Ginther (2003). ``Is MIT the Exception? Gender Pay Differentials in 
        Academic Science.'' Bulletin of Science, Technology, and 
        Society 23(1): 21-26.

DK Ginther (2004). ``Why Women Earn Less: Economic Explanations for the 
        Gender Salary Gap in Science'' AWIS Magazine (Winter 2004) 
        33(1): 6-10.

DK Ginther (2004). ``Gender Differences in Salary and Promotion in 
        Political Science.'' Mimeo, University of Kansas.

DK Ginther (2006a). ``Economics of Gendered Distribution of Resources 
        in Academe,'' in Biological, Social, and Organizational 
        Components of Success for Women in Science and Engineering: 
        Workshop Report. Committee on Maximizing the Potential of Women 
        in Academic Science and Engineering. The National Academies 
        Press, Washington, DC. pp. 56-60.

DK Ginther (2006b). ``The Economics of Gender Differences in Employment 
        Outcomes in Academia,'' in Biological, Social, and 
        Organizational Components of Success for Women in Science and 
        Engineering: Workshop Report. Committee on Maximizing the 
        Potential of Women in Academic Science and Engineering. The 
        National Academies Press, Washington, DC. pp. 99-112.

DK Ginther (2006c). ``The Gender Gap in Science: Does Productivity 
        Explain the Difference?'' Mimeo, University of Kansas.

DK Ginther and KJ Hayes (1999). ``Gender Differences in Salary and 
        Promotion in the Humanities.'' American Economic Review Papers 
        and Proceedings 89(2): 397-402.

DK Ginther and KJ Hayes (2003). ``Gender Differences in Salary and 
        Promotion for Faculty in the Humanities, 1977-1995.'' The 
        Journal of Human Resources 38(1): 34-73.

DK Ginther and S Kahn (2004). ``Women in Economics: Moving Up or 
        Falling Off the Academic Career Ladder?'' Journal of Economic 
        Perspectives (Summer 2004) 18(3): 193-214.

DK Ginther and S Kahn (2006). ``Women's Careers in Academic Social 
        Science: Progress, Pitfalls, and Plateaus.'' Mimeo, University 
        of Kansas.

DK Ginther and S Kahn (forthcoming 2009). ``Does Science Promote Women? 
        Evidence From Academia, 1973-2001'' in Science and Engineering 
        Careers in the United States. Richard B. Freeman and Daniel F. 
        Goroff (eds.), Chicago, IL: University of Chicago Press for 
        NBER Science Engineering Workforce Project.

S Kahn and DK Ginther (2007). ``Good Moves: Gender Differences in 
        Academic Mobility in the Sciences and Social Sciences.'' Mimeo, 
        Boston University.

                     Biography for Donna K. Ginther

    Donna Ginther is an Associate Professor of Economics and the 
Director of the Center for Economic and Business Analysis at the 
Institute for Policy Research at the University of Kansas. Prior to 
joining the University of Kansas faculty, she was a research economist 
and associate policy adviser in the regional group of the Research 
Department of the Federal Reserve Bank of Atlanta from 2000 to 2002, 
and taught at Washington University from 1997 to 2000 and Southern 
Methodist University from 1995 to 1997. Her major fields of study are 
scientific labor markets, gender differences in employment outcomes, 
wage inequality, scientific entrepreneurship, and children's 
educational attainments.
    Dr. Ginther has been published in several journals, including the 
Journal of the American Statistical Association, Journal of Economic 
Perspectives, Demography, and the Papers and Proceedings of the 
American Economic Association. She has also received research funding 
from the National Science Foundation, the National Institutes of 
Health, and the Ewing Marion Kauffman Foundation. She is currently a 
member of the Board of the Committee on the Status of Women in the 
Economics Profession of the American Economic Association in charge of 
organizing the CeMENT national mentoring workshops.
    A native of Wisconsin, Dr. Ginther received her doctorate in 
economics in 1995, Master's degree in economics in 1991, and Bachelor 
of arts in economics in 1987, all from the University of Wisconsin-
Madison.

                               Discussion

    Chairman Baird. I thank the witnesses for a very 
informative and concise and relevant testimony. I will 
recognize myself for five minutes and follow that with Dr. 
Ehlers. We have been joined by the way by Dr. Bartlett. Thank 
you Dr. Bartlett.
    Dr. Carlson, one of the questions I have, as you describe 
the situation, it sounds like you are gathering a fair bit of 
data, but it is incomplete and variable across the agencies 
that are submitting the data. You also describe that you have 
got a--you are in some consultative process to try to perhaps 
improve that set. If that consultative process is successful, 
could you gather the sort of data that is requested in this 
legislation, and would it be of use to you to do so?
    Dr. Carlson. Data on gender and ethnicity and race is--an 
individual cannot be forced to provide that as part of the 
Privacy Act. So there is no way that one can compel that. It is 
actually an issue of working with the individual agencies to 
have them request the data needed, and there is no way that we 
can actually push the agencies to do that. I think that really 
the best way is to work through the Chief Financial Officer's 
counsel, and that might be a way to handle that.
    Chairman Baird. Dr. Blevins, these workshops you described, 
I was very pleased to hear that you focus on data, research-
based information about what are the obstacles for women 
continuing the science career path. We had a prior hearing 
where, among others, Dr. Shalala spoke, and one of the things 
that came up was the point you have all made, essentially that 
really just the number of baccalaureate level folks is pretty 
good for women. There is this drop down the road a ways. What 
specifically about your workshops addresses that would be one 
point, and the second would be if, as this legislation 
recommends, we would require there be these training workshops, 
how would we make sure that the caliber of the workshop is 
good? I have had the opportunity in my own academic career to 
participate in both gender and ethnic sensitivity type 
workshops, and the caliber quite frankly varied a great deal. 
What are your thoughts on that?
    Dr. Blevins. Okay. So the first question, what specific 
about the workshop addresses this fall off----
    Chairman Baird. Yeah, the data----
    Dr. Blevins.--in the statistics?
    Chairman Baird. Specifically the research data that tells 
us what causes the fall off. Dr. Ginther pointed a few points 
out.
    Dr. Blevins. Right. I think the workshops focus on all 
sorts of things. One is the idea of implicit bias and gender 
schemas, and the other is just sort of policies and practices 
of the universities and the institutions that might not make 
them very good places to work. For example, a graduate student 
might not find a faculty career very attractive. That has come 
up several times because of the types of policies and 
practices. One example of that is just a simple one which was 
surprising to me, is when do you hold your faculty meetings? I 
mean, some folks hold them on Saturdays or, you know, at 5:00 
in the evening. And so that is kind of a simple one that can 
sort of make the environment better for men and women actually. 
All of these things are really geared toward that.
    Chairman Baird. As a father of two twins, I appreciate 
that, three-year-old boys.
    Dr. Blevins. And so it is really a rich format with a very 
experienced group of department chairs, federal officials, and 
scientists of all types. They come together and bring a lot of 
expertise into these break-out sessions. And for example, at 
the physics workshop, one of the universities talked about how 
it was implementing a part-time tenure track. So there are a 
lot of interesting and different ideas that come out of them.
    How do we keep the caliber of the workshops high or how do 
communities keep the caliber? I think the key concept here is 
to make them data-driven and to really focus on data so that 
people don't walk out of the room kind of thinking, well that 
is somebody else's problem and not mine. I think if you really 
focus on the data from the social science and whatnot, these 
people who attend really take ownership I think in this issue. 
And so, we talk a lot about how to make them different from 
what has been held in the past, and I think it is more than 
just everyone getting around, telling their stories about how 
bad it is for them. We try to avoid that, and we really try to 
keep it data-focused.
    Chairman Baird. Sounds like you achieved that, and I am 
sure Dr. Ginther, her data set would be--Doctor, your data set 
seems quite relevant to that. One quick question, and then I 
will recognize Dr. Ehlers. Has anyone estimated the cost--I 
support the idea of considering providing indirect costs for 
childcare. Have we got an estimate of the cost of that?
    Dr. Ginther. I checked with the NIH and they say it is 
permissible to use childcare facilities toward indirect costs, 
though no grantees do so. So I don't know how it would--you 
know, I don't know the specifics of how it would be 
implemented. It is possible, and I don't know why other 
institutions aren't doing it.
    Chairman Baird. Dr. Ehlers is recognized.
    Mr. Ehlers. Thank you, Mr. Chairman. Dr. Ginther, you 
recommend the establishment of a valid research design to 
measure the effectiveness of the workshops proposed by this 
legislation. Can you suggest how that might be incorporated 
into the legislation and would you recommend that these 
workshops start out on a pilot basis with a good evaluation 
mechanism?
    Dr. Ginther. I think that whenever you are evaluating an 
intervention, you need to have a treatment and control group. 
So if you are targeting, say, grant reviewers, you would have a 
treatment group that goes through the gender bias workshop. And 
then you would have a control group that doesn't, and then they 
would look at the same proposal and then you look at the 
evaluations coming out of the treatment and control group, 
compare the two, and see whether or not bias played a role in 
the evaluations, whether or not there were average differences. 
Women are evaluated better by the people who have the gender 
bias training. That would prove scientifically that these 
workshops have a significant effect.
    We are doing a similar approach with our mentoring 
workshops in the American Economic Association. We have held 
three so far, and we have about 80 participants who are 
randomly assigned to a treatment and control group, and then we 
look at these young scholars as their careers evolve and we see 
whether or not the mentoring workshops actually have a 
significant effect. And then once we have shown that or failed 
to show that, then we can sort of say, these policies are 
important and should be disseminated widely across the 
disciplines. But I agree with Dr. Blevins' point, that each 
discipline has a specific set of issues and these need to be 
discipline-specific in order to be effective.
    Mr. Ehlers. Another question. If work/family trade-offs are 
at least a significant factor, maybe an extremely significant 
factor, but the question is, does your research indicate that 
these trade-off decisions are more acute in science and 
engineering than in other disciplines?
    Dr. Ginther. I have not evaluated the humanities, but I 
have evaluated science and social science and I find that women 
tend to leave the doctorate and getting on the tenure track in 
both disciplines. What I have also found is that each 
discipline is different. So in engineering, for example, you 
see women entering tenure-track jobs at higher rates than men, 
but they are more likely to drop out of the tenure track if 
they have a child. So these work/family trade-offs really seem 
to affect every woman in academia. But I think they are more 
likely to affect women in that period of purgatory known as the 
post-doc. You know, you don't have faculty status, you don't 
have student status, and it is not clear whether or not there 
is a job going to come out at the other end; and therefore, you 
know, judging by what is happening in the data, I can't prove 
this definitively but judging by what happens, they decide to 
opt out.
    Mr. Ehlers. Does this happen in the post-doc level?
    Dr. Ginther. Yeah.
    Mr. Ehlers.--it is more or less permanent, right?
    Dr. Ginther. Yeah, I mean it is an irrevocable decision.
    Mr. Ehlers. But if they are on tenure track, they may drop 
out for a few years.
    Dr. Ginther. Now, on the tenure track, I find no 
significant differences in the science of women making it 
through. So women and men are promoted to tenure and to full 
professor at equal rates once they get to the tenure track in 
science. Not true in social science.
    Mr. Ehlers. I see. That is interesting. So in other words, 
we scientists are more fair-minded----
    Dr. Ginther. I would state it a little differently. You 
scientists pre-screen your tenure track applicants. There is a 
screening mechanism called post-doc, and social scientists 
don't have post-docs on average. And so then you see the 
screening happening on the tenure track.
    Mr. Ehlers. Okay. Sorry. I thought I had discovered 
something new. Dr. Blevins----
    Chairman Baird. I think you were engaging in confirmation 
bias.
    Mr. Ehlers. But I hide my biases very well. I do have lots 
of them. Dr. Blevins, do you have any indication that the 
attitude perception shifts resulting from the workshops 
resulted or led to institutional change? Do you follow-up on 
this?
    Dr. Blevins. In fact, follow-up is being done for the 
chemistry workshop. I have a Committee on the Advancement of 
Women Chemists, and they have an interactive website and they 
have collected input. And in fact, there have been some 
anecdotal pieces entered into the website about some of the 
changes, and I have written about some of those in my 
testimony. Let me see if I can--I remember that there were 
things about changing the way they interviewed candidates and 
creating more concrete criteria by which everyone would 
evaluate the candidates in writing, working on this childcare 
issue, changing their faculty meeting times and things like 
that. In fact, I think nearly half of the chairs that attended 
have gone in and entered updates to the website two years 
later, which is I think a very high success rate.
    Mr. Ehlers. All right. I think my time has expired. I am 
afraid we have to go vote.
    Chairman Baird. Yeah, we are down to five minutes voting, 
and without boring you with the details of what lies ahead for 
us, what lies ahead for you is about a 45-minute wait. And we 
regret that, but we will likely--I don't foresee us likely 
coming back before 11:15. So let us just give everybody that as 
a predictable time. It is possible we run over a few minutes, 
but Dr. Bartlett, a couple minutes. The challenge is I don't 
know how tight they are holding the votes right now.
    Mr. Bartlett. Thank you very much. I have a markup in a 
subcommittee so I cannot come back after the vote. We only have 
a couple of minutes before we need to run for votes. Anything 
that we can do to encourage more of our young people, 
particularly women, who have largely been under represented in 
these areas to go into science, math, and engineering is 
enormously important. I just read a statistic yesterday that 
really alarmed me. Sixty percent of all of the patents that 
come to our patent office come from inventors outside the 
United States. This year China will graduate six times as many 
engineers as we graduate and more than 50 percent of all of the 
students in our sciences for post-college education are foreign 
students. So we face enormous challenges, and we just pretty 
much ignored a full 50 percent of our potential by not 
encouraging women to go into these disciplines.
    I am very much concerned about any discrimination, but I am 
even more concerned about a culture which does not appreciate 
people in these areas. I just think we need to change the 
culture so that these careers are valued. Culture gets what it 
appreciates, and we just don't appreciate these careers. We 
appreciate singers and dancers and football players, and so if 
it was just who gets invited to the White House where they 
slobber all over them rather than academic figures, they are 
sports and entertainers and so forth. Don't you think we really 
need a culture change in this country? And you are very 
effective representatives, three very attractive women, bright, 
and you know, you just need to be out and about more so that 
people can see, gee, there really is an opportunity for women 
in these disciplines, isn't there? Thank you very much for your 
testimony. I am sorry we don't have more time for conversation. 
Thank you very much.
    Chairman Baird. Thank you, Dr. Bartlett. Thank you. Please 
indulge with your patience. I apologize for the interruption. 
It is beyond our control. But we will rush off and vote and 
come back as quickly as we can. But I think it is very 
improbable we would be back before 11:15. So let us make it 
11:10 if you would. Let us try to come back at 11:10 just in 
case we get lucky early, and then we will reconvene. Thank you 
very much.
    [Recess.]
    Chairman Baird. The meeting will now come to order again. 
We apologize profoundly to our witnesses. It has not been our 
finest hour over on the Floor. A series of procedural votes 
make it very unpredictable. Dr. Ehlers and I have agreed 
mutually that we have respect for the witnesses who have 
traveled so far and made such effort to give us good testimony. 
We are going to miss a couple of votes in order that we can be 
here and hear from you.
    So with that, Dr. Ehlers, I will recognize you because I 
know you have some further questions, and then I will resume. 
We don't have any other with us. It is possible that Eddie 
Bernice Johnson from Texas will join us as well, but Dr. 
Ehlers, I will recognize you for five minutes.
    Mr. Ehlers. Thank you, Mr. Chairman, and first of all I 
want to follow up with several questions for Dr. Ginther since 
she traveled a great distance to be here. NSF is working to 
establish a productivity database. Once this information is 
available, can you speak to how it will expand the existing 
knowledge base and understanding of the advancement of female 
faculty members?
    Dr. Ginther. If I may sort of make one small correction, I 
proposed to create the productivity database with the survey of 
doctorate recipients as part of a grant that I submitted in 
2004, and the goal of creating this data was to merge 
publications, citations, and patents onto the survey of 
doctorate recipients, and this is a work in progress. But the 
goal is to see what other factors may explain why women have 
not advanced or don't participate in science at the same 
numbers as men. And so does productivity, for example, explain 
why women in economics are less likely to get tenure? How do 
these other variables--you know, as economists, we assume that 
people are paid and promoted based on how productive they are, 
and in academia, you can measure productivity much better than 
you can in say the private sector.
    So my goal with the creation of this data is to see if 
there are gender differences in productivity and how they 
affect the careers of men and women in science. And there are 
also positive externalities to creating these data because you 
can examine a number of other questions, like why has science 
in the United States slowed down in terms of the number of 
publications relative to the rest of the world? So the goal is 
to create the data, and there is a great interest in the 
research community for using it. And hopefully it will sort of 
help us narrow down why women are not as prevalent in science 
and social science.
    Mr. Ehlers. In a nutshell, it seems to me what I have heard 
said this morning is that women are not as productive or don't 
seem to advance so much primarily because of the childcare 
issue.
    Dr. Ginther. That is what my research indicates, yes.
    Mr. Ehlers. Okay. And just a quick question of Dr. Carlson 
and Dr. Blevins. Do you find that also in your experience and 
in the research you have reviewed?
    Dr. Carlson. We have not really looked at that, so I can't 
comment on that.
    Mr. Ehlers. Okay. But that indicates that is not a matter 
of sexual bias so much as the practical aspect of how is the 
childcare within the family handled. I am drawing a conclusion. 
I wanted to ask you to support or disagree with it.
    Dr. Ginther, one other question I had, including all 
principal investigators in the workshops seems like it would be 
difficult. Can you recommend another method to reach the PIs 
who directly oversee post-docs regarding improving the post 
doctoral experience for women?
    Dr. Ginther. I would say that, you know, before you reach 
all PIs, just do a test, you know, to see if sort of providing 
them information about bias and other barriers that women face 
in science and in the post-doc period matters. Have a treatment 
and control group. And then if it does, then you can sort of 
selectively identify PIs, especially those who have a number of 
post-docs that they supervise and try to disseminate it that 
way.
    So, you know, I agree it would be really prohibitively 
expensive to train each PI, but it would be really useful to 
know whether or not training the PIs would matter, and if it 
does, you can disseminate this information to the professional 
societies and help them to get the message out.
    Mr. Ehlers. It is not clear to me. I really appreciate what 
you are saying. It seems to me you have got a good handle on 
things, but how would you proceed to design pilot programs to 
institute this?
    Dr. Ginther. Okay. So you take an agency like NIH which 
funds a significant number of post-docs, and you say a 
condition of funding is that you take a random sample of 100. 
You take 50 and you train them and then you take 50 and you 
don't, and then you sort of do a survey and follow up on the 
progress of their post-doc mix. And NIH gives millions of 
dollars for post-doc training. They have traineeships and 
fellowships, and then you can evaluate how these women and men 
differentially progress out of the post-doc and into careers.
    Mr. Ehlers. That is interesting being a physical scientist, 
I hadn't thought of NIH as being the first test bed, but you 
are obviously right. They have more money for post-docs.
    Dr. Ginther. Yeah, 70 percent of all life scientists have 
to have a post-doc before advancing to an academic career. And 
now I think the median is more than one.
    Mr. Ehlers. Okay. My time has expired. I yield back.
    Chairman Baird. Dr. Blevins, did you want to comment 
further on the question line that Dr. Ehlers was pursuing 
there? You looked like you might have----
    Dr. Blevins. Well, I want to qualify that I am also a 
physical scientist, not a social scientist, but I think some of 
the social scientists who have spoken at our workshops might 
differ some with what you said. So I would just urge you to 
talk to some of the folks who have come to the workshops and 
spoken as well.
    Chairman Baird. What would they tell us?
    Dr. Blevins. Well, I think the issue of implicit bias is 
something that men and women experience and hold and are not 
always aware that they do. And these are the things that I 
learned at the workshop from the social scientists. While any 
one thing might seem like a small thing to which somebody might 
be overreacting, if you add up the sum total of all these 
things over a course of a person's career, there is a concept 
of accumulation of disadvantage that comes into play. So I have 
to say I am a little uncomfortable going outside of my comfort 
zone on this. That is because I am not a social scientist, but 
I would just say that the prevailing sentiment at the workshops 
has been that it is more than just a childcare issue.
    Chairman Baird. Hence we might make some dent into--I am 
not even sure retention is the right word but advancement may 
even be a better word--differentials if we provided childcare. 
But that might not be sufficient, maybe necessary but not 
sufficient. Would that be a fair statement?
    Dr. Ginther. I think the issue is complex, you know. I am 
not saying that there is no such thing as bias in science. But 
for bias to explain everything, it would have to show up in a 
lot more places than it does. You know, women in science, once 
they get on the tenure track, are equally likely to get tenure 
and to become full professor. But at the full professor level, 
for some reason, there is a 13 percent pay gap that I can't 
explain by observable characteristics. Now I don't have every 
observable characteristic. I don't have their productivity. And 
you know, as an economist, we believe people are paid according 
to their productivity. And it is only until I can disprove that 
I will even be able to publish this research in the economics 
profession.
    Chairman Baird. Well, you can just prove that by visiting 
Congress. Hang around here for a while. You will see that 
productivity is not necessarily directly correlated to pay.
    Dr. Ginther. Hey, but your pay is set, right?
    Chairman Baird. Yes, QED. The question remains. So we have 
had people tell us in this committee that childcare is a factor 
but there are also cultural factors, that there are implicit 
biases, et cetera. What happens to the women who leave--there 
is an implicit assumption here it is a bad thing to leave 
academia. Dr. Ehlers and I might not always agree with that. 
We've left. What happens to the women who don't go on into the 
academic field or the professional field? It would be one thing 
if we said, well, X percent higher numbers of women drop out 
from that profession, and we assume that is a bad thing. But if 
they go onto things that they personally deem to be more 
rewarding, either financially or monetarily, it may be a bad 
thing in terms of lost productivity, but is it a bad thing for 
the women themselves? I am playing devil's advocate here, you 
recognize that. Any thoughts on that?
    Dr. Ginther. This is sort of my area of expertise. What 
happens is if you leave science or if you leave any 
professional career, your human capital quickly depreciates. 
And if you want to re-enter the labor force, you are not going 
to be able to do so. And I think that is especially true--and 
receive the same pay as when you left. And I think that is 
especially true in science because science moves so quickly. If 
women leave science, they are not going to be able to come back 
and be scientists once they leave. And so you know there is a 
loss in human capital.
    Chairman Baird. But the assumption there is that they go 
somewhere that is somewhat of a dead end instead of going 
somewhere--for example, as competitive as the field is in the 
professions, maybe people--I am speculating, it may not be 
true. Maybe they are leaving an academic career to go to a 
private enterprise career, make more money and have more 
success. I don't assume.
    Dr. Ginther. I think it is true in certain disciplines, 
like, you know, engineering. The track out of a Ph.D. in 
engineering is into the private sector because the jobs there 
pay better than academia. But some jobs, I mean, you can't 
really do particle physics in the private sector. And so as a 
result, I mean, you kind of have an option of the labs at the 
university or not doing particle physics. So I can't really 
comment on what they end up doing, but we see in all levels, 
highly educated women are leaving the labor force now outside 
of academia, and it seems to correlate with having children.
    Chairman Baird. Yeah. So we have got to address that. There 
is no question. But Dr. Blevins seems to be asserting there is 
much more to it than that, that there are these biases, et 
cetera. So hence, that is the workshop component that is--back 
to this legislation per se, that is the workshop component and 
that is the rationale. What is not in this legislation, and Dr. 
Ehlers, I am running over here, but what is not in this 
legislation that you believe should be if we are to try to 
redress some--and obviously the issue Dr. Ginther has raised 
already about indirect costs for childcare. What else is there?
    Dr. Ginther. Well, there is how to spend direct costs from 
your grants toward covering issues like childcare for travel. I 
think Mr. Campbell testified previously that the R&D rules are 
too restrictive about that.
    Chairman Baird. Okay. Other thoughts? Dr. Ehlers, I 
recognize you for other questions.
    Mr. Ehlers. I have no further questions, Mr. Chairman.
    Chairman Baird. Neither do I, and with that, I thank the 
witnesses for their patience, and we apologize for the 
interruptions and the distractions. It is a difficult 
environment. They have not yet asked Dr. Ehlers or I how we 
would run the schedule here, but I can assure you it would be 
much different.
    So thank you for your time and thanks for the guests who 
joined us today as well in the audience, and with that, this 
hearing stands adjourned. And if people have follow-up comments 
they wish to offer, please feel free to do so. Thank you.
    [Whereupon, at 11:26 a.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions
Responses by Lynda T. Carlson, Director, Division of Science Resources 
        Statistics (SRS), National Science Foundation (NSF)

Questions submitted by Representative Eddie Bernice Johnson

Q1.  I realize that your testimony specifically discusses the NSF 
Division of Science Resources Statistics, also called the SRS. Is there 
cross-talk between SRS and the Survey of Earned Doctorates, which is 
currently repressing statistics on minority Ph.D. grantees? What is 
being done to rectify this data repression?

A1. The Division of Science Resources (SRS) is the federal statistical 
agency with responsibility for data and analysis on the science and 
engineering enterprise, writ large. As part of that responsibility SRS 
conducts the Survey of Earned Doctorates (SED), which is a survey of 
all Ph.D. recipients from U.S. academic institutions.
    Last full during a review of its data protection procedures 
conducted in light of newly issued guidelines for the Confidential 
Information Protection and Statistical Efficiency Act of 2002 (CIPSEA), 
SRS implemented more stringent rules to protect the confidentiality of 
data provided by respondents to the SED. This additional protection 
resulted in a decrease in the number of cells in which data were 
published in the SED 2006 Summary Report as compared to SED Summary 
Reports published in previous years. Tables that individuals special 
ordered from the survey contractor also had fewer cells with published 
data. The cells affected related primarily to race/ethnicity, 
citizenship and gender.
    After publishing the 2006 SED tabulations, NSF/SRS received many 
complaints from the user community about the availability of less 
information for under-represented minorities than previously released. 
A great deal of the concern related to the fact that SRS implemented 
the changes without input from the user community. Users strongly 
suggested that SRS solicit user input as to how best to design the 
tables to meet a broad spectrum of user needs. NSF has listened to this 
concern. The following statement was released by NSF in May:

         ``SRS will be releasing the race/ethnicity, citizenship and 
        gender data collected for the 2006 Survey of Earned Doctorates 
        (SED) as in previous years. There are privacy and 
        confidentiality issues that must be addressed, particularly in 
        the context of small data sets. The question of how to 
        aggregate the data in future years will be addressed with the 
        data user community over the next few months and new tables 
        will be developed to release data from the 2007 SED.''

    Tables containing 2006 SED data with the same level of detail as in 
previous years for race/ethnicity, citizenship and gender can be 
requested through a link on the NSF/SRS website at http://www.nsf.gov/
statistics/srvydoctorates/2006/sed06data.htm.
    The same web page has a comment box requesting suggestions for ways 
to redesign the SED data tables so that they will address both issues 
of privacy/confidentiality and the needs of data users. SRS is also 
asking interested parties to take part in a web survey on the redesign 
of the SED data tables. We hope that interested parties will avail 
themselves of both the comment box and the web survey to help SRS 
redesign the tables. SRS is also engaging in an extensive outreach 
effort to solicit information about the ways in which SED data are used 
and to garner suggestions for alternative ways to present the data.
    NSF/SRS understands the importance of reporting on the progress of 
under-represented minorities in science and engineering (S&E). This 
consideration will guide the development of alternative data displays 
that will document the role of under-represented minorities in S&E and 
the redesign of tables to display this information to the maximum 
extent possible.
    To meet the needs of users for 2007 data from the SED on a similar 
schedule as in previous years, SRS will release in late 2008 high-level 
summary statistics of 2007 SED data in an InfoBrief (see htt;://
www.nsf.gov/statistics/infbrief/nsf08301/ for the 2006 InfoBrief). 
Concurrently SRS will be redesigning the tables for the full 2007 SED 
Summary report, which is planned for release in spring 2009.

                   Answers to Post-Hearing Questions
Responses by Linda G. Blevins, Senior Technical Advisor, Office of the 
        Deputy Director for Science Programs, U.S. Department of Energy

Questions submitted by Representative Eddie Bernice Johnson

Q1.  Dr. Ginther expressed concern about motivation among workshop 
participants. She cites her own discipline, economics, as being 
particularly hostile to this kind of workshop. Did you find this to be 
a problem at all in the workshops that you participated in? Are there 
best practices specifically to overcome any reluctance on the part of 
invited participants?

A1. For the chemistry and physics workshops, some department chairs 
were motivated to attend and some were not. Each chair was first 
contacted by a steering committee member. The steering committee 
members were able to use their considerable influence in the scientific 
community to convince most department chairs to attend; however, a few 
were reluctant. The reluctant participants were then contacted by the 
federal program managers in the sponsoring agencies; some were called 
several times. Convincing the last few chairs to attend required a 
great deal of work by both the steering committees and the federal 
advisors.

Q2.  How often do you think that gender bias workshops should be held 
for each discipline in order for attitudinal changes to spread 
throughout the community, and not just among the department chairs who 
participate directly in the workshops?

A2. We do not currently have enough data to make this prediction. To 
date, no community has held more than one gender equity workshop. The 
workshops have been driven and owned by the communities, and the 
communities are currently examining their outcomes. The assessment 
results from the first round of workshops should inform decisions of 
whether or not to hold follow-on workshops.

                   Answers to Post-Hearing Questions
Responses by Donna K. Ginther, Associate Professor, Department of 
        Economics; Director, Center for Economic and Business Analysis, 
        University of Kansas

Questions submitted by Representative Eddie Bernice Johnson

Q1.  Can you propose more specifically how universities can count 
childcare facilities toward indirect costs?

A1. Availability of daycare on campus is in short-supply. No faculty 
member can be productive if they are preoccupied with the care of their 
children while they are at work. Some institutions include on-site 
childcare as a fringe benefit, which for grants purposes is considered 
a direct cost.\1\ However, in practice, the number of childcare spaces 
on campus is so limited that enrolling a child in daycare is akin to 
winning the lottery. Furthermore, if on-site childcare is available, 
often it is for children who are one year or older. Infant daycare 
slots are extremely difficult to come by.
---------------------------------------------------------------------------
    \1\ In the University of Kansas F&A agreement, on-site childcare is 
not counted as a fringe benefit.
---------------------------------------------------------------------------
    The Federal Government can create incentives for on-site childcare 
by allowing universities to count childcare facilities, building 
depreciation, and operation and maintenance as part of indirect costs 
associated with grants. According to the NIH website (http://
grants.nih.gov/training/faq<INF>-</INF>childcare.htm): ``The HHS 
Division of Cost Accounting found that many grantees offer subsidized 
child care centers and have negotiated costs associated with such 
centers into their employee benefit rates. No grantee was identified 
that covers such costs through indirect costs.'' This statement 
indicates that it might be possible for universities to include 
childcare space available on campus in their calculation of indirect 
costs.
    My sense is that funding agencies such as NSF and NIH would need to 
be instructed by OMB to allow childcare space to count toward indirect 
costs in much the same way that these costs are calculated for 
laboratory space. Since infant care is a crucial issue for most faculty 
(and in the shortest supply), the availability of infant spaces should 
be counted at a higher indirect cost rate than spaces for older 
children.
    If universities were allowed and encouraged to count childcare 
spaces towards indirect costs, this would provide a subsidy to the 
provision of childcare on campus. It would benefit all faculty, but 
would likely benefit female faculty more since on average they shoulder 
the burden of caregiving responsibilities.

Q2.  Would childcare be listed as an individual investigator cost? I 
can tell you that some Science Committee Members as well as the public 
would be displeased that research monies are being spent on childcare. 
Can you suggest a tenable alternative?

A2. I would not recommend listing childcare as an individual 
investigator cost. All U.S. taxpayers receive tax breaks for childcare 
expenses. Allowing individual investigators to charge grants directly 
for all childcare expenses would be a huge subsidy to individual 
investigators relative to the average worker. The primary beneficiaries 
would likely be male investigators with children.
    However, I support Myron Campbell's testimony before the Committee 
which recommended that Federal OMB guidelines\2\ be modified to allow 
faculty members to charge grants for the cost of childcare during a 
conference, or the cost of having small children travel to conferences 
be charged against direct or indirect grant costs (http://
democrats.science.house.gov/Media/File/Commdocs/hearings/2007/research/
17oct/Campbell<INF>-</INF>testimony.pdf). It is very difficult to 
attend conferences when an investigator has small children. Speaking 
from personal experience, when I have attended conferences my husband 
and I have paid for our parents to come to our house to help with the 
children. Fortunately, we have the funds to cover these expenses. 
However, most individual investigators are not so lucky. Thus, the only 
direct childcare costs charged to grants would be for out-of-town 
travel either to pay for childcare when an investigator is attending a 
conference or to pay for children to travel to conferences with their 
investigator-parent. Currently, investigators can charge travel 
expenses towards research grants. Allowing these additional charges 
would just increase the travel portion of the researcher's budget.
---------------------------------------------------------------------------
    \2\ http://www.whitehouse.gov/omb/circulars/a021/a021.html
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre></body></html>
